<html>
<title> - THE EFFECTIVENESS OF MEDIA RATINGS</title>
<body><pre>[Senate Hearing 108-952]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-952
 
                   THE EFFECTIVENESS OF MEDIA RATINGS

=======================================================================


                                HEARING

                               before the

                 SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, 

                               AND SPACE

                                 of the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 28, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
81-139                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                                 ------                                

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                    SAM BROWNBACK, Kansas, Chairman
TED STEVENS, Alaska                  JOHN B. BREAUX, Louisiana, Ranking
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               RON WYDEN, Oregon
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     FRANK R. LAUTENBERG, New Jersey


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 28, 2004...............................     1
Statement of Senator Brownback...................................     1
Statement of Senator Ensign......................................    40
Statement of Senator Smith.......................................    40

                               Witnesses

Glickman, Hon. Dan, President and CEO, Motion Picture Association 
  of America.....................................................     4
    Prepared statement...........................................     5
Kinney, David G., President and CEO, PSVratings, Inc.............    23
    Prepared statement...........................................    25
Miller, Patti, Director, Children & The Media Program, Children 
  Now............................................................    36
    Prepared statement...........................................    38
Podesta, Anthony T., Executive Secretariat, on Behalf of the TV 
  Parental Guidelines Monitoring Board...........................    20
    Prepared statement...........................................    21
    Letter dated October 18, 2004 to Hon. Sam Brownback from 
      Anthony T. Podesta, Executive Secretariat, Parential 
      Guidelines Monitoring Board................................    52
Thompson, Sc.D., Kimberly M., Associate Professor and Director, 
  Kids Risk Project, Harvard School of Public Health.............    31
    Prepared statement...........................................    33
Valenti, Jack, Former Chairman and CEO, Motion Picture 
  Association of America.........................................     2
    Prepared statement...........................................     6
Vance, Patricia, President, Entertainment Software Rating Board 
  (ESRB).........................................................    13
    Prepared statement...........................................    14

                                Appendix

Steyer, Jim, CEO, Common Sense Media, prepared statement.........    59


                   THE EFFECTIVENESS OF MEDIA RATINGS

                              ----------                              


                      TUESDAY, SEPTEMBER 28, 2004

                               U.S. Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:36 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Sam 
Brownback, Chairman, presiding.

           OPENING STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Good afternoon, everybody. I call the 
hearing to order.
    We are here today to revisit a growing concern of this 
country, how to truly empower parents with an honest, user-
friendly, and consistent account of the content in all 
entertainment products. As represented by the posters on either 
side of me, many find the current ratings systems overwhelming 
and confusing. As a result, parents are left to fight an uphill 
battle.
    Our economy puts heavy demands on working moms and dads. 
Today's average parent has little energy left to master the 
intricacies of the multiple ratings systems. Adding to the 
challenge are inconsistencies in ratings between mediums, 
ratings creep, and media marketing departments that continue to 
target young audiences with inappropriate content. This makes 
setting clear boundaries on entertainment for children 
virtually impossible.
    This concern over ratings is not new. Four years ago this 
month, Chairman McCain held a hearing that examined the 
marketing of violence to children. There he pushed the idea of 
creating a uniform ratings system for all media. Then in July 
2001, Senator Lieberman echoed this call in his hearing on 
ratings systems. Their joint legislative effort to establish a 
system for labeling all violent media was met with fierce 
opposition as an unconstitutional regulation on industry. Yet 
it seems that no efforts have been made to voluntarily 
coordinate the ratings systems to respond to parents' concern.
    I called this hearing because this concern is not going 
away. In fact, it is escalating in the wake of new studies that 
show exposure to violent and sexual material can desensitize 
children to violence, potentially cause ADHD, and lead to early 
teen sexual activity. Those are the recent studies.
    Last week the Kaiser Family Foundation released a study 
that showed a majority of parents are worried about the amount 
of sex and violence their children are exposed to on TV. 
Overall, they found parents are more concerned about 
inappropriate content on TV than in any other media. Yet the 
television ratings are amongst the most confusing out of all of 
the forms of media. The study found that, while many parents 
have used the V-Chip, too many still do not know what the 
ratings mean or even that their TV includes a V-Chip.
    Further evidence of the frustration with media ratings is 
the emergence of new independent ratings systems. We have with 
us today a representative of these systems, Mr. David Kinney of 
PSVratings. Systems like PSV do a more thorough job of rating, 
not just for levels of sex, violence, and profanity, but also 
more specific concerns such as the use of drugs and alcohol and 
attitudes toward women. We are pleased that Mr. Kinney could 
join us today to explain more about how independent ratings are 
fitting into the entertainment industry landscape.
    We are honored to have with us today two representatives 
from the Motion Pictures Association, the new President, 
Secretary, Congressman, now President of the Motion Picture 
Association, Dan Glickman, a fellow Kansan. I am delighted to 
welcome him to the Committee and to this prestigious position. 
And the former Chairman, Jack Valenti, who has for 36 years had 
first-hand knowledge of the ratings systems for movies and also 
for television, and we are fortunate to have him here and to 
have his expertise as well.
    We are also honored to have Patricia Vance, President of 
the Entertainment Software Rating Board; Dr. Kim Thompson, 
Associate Professor and Director of Kids Risk Project at the 
Harvard School of Public Health, who has just completed the 
first study on ratings creep; Patti Miller, the Director of the 
Children and Media Program at Children Now; and Mr. Anthony 
Podesta of Podesta Mattoon, who is representing the TV Parental 
Guidance System.
    Thank you all for being here today to help discuss and talk 
about the current ratings systems and explore ways that they 
can be made more useful for parents. I expect a number of my 
colleagues will be joining us throughout the hearing. We have a 
vote that is currently in action. I think several of them will 
be back. We may have some opening statements by some of the 
other members when they come in.
    We would like to start off the hearing because I have a 
number of questions, too, and we have a large panel of people 
to present. To respect seniority, if I could, Mr. Valenti, I 
would like to go with you first, if you would be willing to 
give us your thoughts and expertise on this topic. You have 
been around it for a long period of time and we would like to 
go with you first if you would be willing to testify.

        STATEMENT OF JACK VALENTI, FORMER CHAIRMAN AND 
           CEO, MOTION PICTURE ASSOCIATION OF AMERICA

    Mr. Valenti. Thank you, Mr. Chairman. I cannot dispute the 
fact that I have been around a long time. That is a matter of 
record.
    Mr. Podesta will go into some of the details of the 
entrails of the TV rating system, but I would like to say that 
I want to pay tribute to Decker Anstrom, former President of 
the National Cable and Telecommunications Association, now the 
Chairman of the Landmark Communications Company, and to Eddie 
Fritts, President of the National Association of Broadcasters, 
who along with me spent almost 2 years of our time trying to 
put together a TV rating system.
    Tony will go into the details, but I will tell you in the 
beginning one of my great heroes is a 14th century Franciscan 
monk named William of Occam, and he comprised something which 
has come down in the last 600 years to be what is known as 
Occam's Razor that, freely translated from the Latin, means: 
Entities are not to be multiplied except out of absolute 
necessity. Or to put it in plain English, keep it simple, keep 
it simple.
    That is what we tried to do in the original version of the 
TV ratings. I think the criticism that the TV ratings are 
confusing has some merit to it, because after we put these 
ratings out there was some concern on the part of some people 
who felt strenuously and passionately that they did not do 
enough, and so we went back to the drawing board and as a 
result of that what you have now are really about seven 
different ratings along with ``D'' for ``dialogue,'' ``S'' for 
``sex,'' ``V'' for ``violence,'' and--what is the other one--
``L'' for ``language.''
    All of that bred a kind of a confusion and I can understand 
that. But I think one of the good things that came out of the 
Kaiser study, which you spoke at last week and I stayed to 
listen to the findings, was that the people who use the V-Chip 
like it. The problem is that many people do not even know they 
have a V-Chip.
    One of the ways to remedy that, Mr. Chairman, was, I 
thought, was to have at the retail sales where every television 
set is sold be a yellow placard on that television set that 
says: ``In this set is a V-Chip. See the other side for how to 
work it.'' I think that is the best way to get the education 
across, because then you would go direct to the people who are 
buying the TV sets. About 25 to 28 million TV sets are sold 
every year. So since the ratings went into effect, there is 
probably 125 million sets in the country today that have the V-
Chip in it. But I will let Mr. Podesta go into the details.
    Now about movie ratings. The movie rating system, Mr. 
Chairman, will be 36 years old on November 1, and I like to 
believe that nothing lasts 36 years in this explosive, dynamic, 
and sometimes difficult marketplace unless it is providing some 
kind of a benefit to the people that it aims to serve, in this 
case the parents of America.
    By the way, we urge parents to not just look at our 
ratings, but look at Mr. Kinney's ratings and all the others, 
read ``Parents'' magazine, talk to your neighbors, find out 
more you can about a movie. We urge that.
    But I want to show you something that I believe is a 
telling blow against those who say the movie rating system is 
not working. I think the best measure of an election is how the 
people vote. The best measure of a rating system is how the 
people vote. One of the things that we found in the Kaiser 
study was that 45 percent of the respondents found the ratings, 
movie ratings, to be very useful. That comports almost 
identically with the ORC, Opinion Research Corporation's, 
survey that we take every year.
    If I may, may I stand and show you something here, Mr. 
Chairman? I will sit so the microphone can catch me.
    This is the latest survey from ORC. We have taken these 
every year since 1969, with approximately 2,600 respondents, 
with a plus or minus error probability of about 3 percent. We 
came out this September with the largest parental approval in 
the history of the ratings system. These are for parents with 
children under 13: 82 percent said that they found the ratings 
to be very useful to fairly useful in helping them decide what 
movies they want their children to see or not to see.
    I am elated because the parents are the people that this 
system is directed, not to producers, not to studio heads, not 
to directors, writers, anybody else, directed at ratings. And 
they are the ones that are telling us, yes, we trust you and we 
believe in it.
    As a matter of fact, what the Kaiser Foundation found was 
that 45 percent thought that movie ratings were very useful, 
and I think another 37 percent found the ratings system, 47 
percent, to be fairly useful. So they had a 92 percent approval 
by parents.
    So I do not want to go on any further. I think this is 
putting before you what parents are saying, I think to me is 
the essential, not just the ornaments of a survey, but the 
essentials of a survey. This is what I think that we have come 
forward with, and I am quite proud. So when November comes 
around about 4 or 5 weeks from now, we are going to let the 
people know that we are 36 years old and we hope to be 37, 38, 
39, and whatever.
    Thank you, sir.
    Senator Brownback. Thank you. I appreciate your testimony. 
I do not know if this will be the last time you will testify 
here. Dan is shaking his head no.
    [Laughter.]
    Senator Brownback. But I know you have been here many, many 
times and we do deeply appreciate the thoughts and the words 
that you have put forward over many years in representing the 
Motion Picture Association. You have done a fabulous job.
    The new, incoming President, I do believe this is your 
first testimony in front of this committee, is Mr. Dan 
Glickman, who is familiar with the industry. His son works in 
the industry. We go back a long ways. I want to welcome you in 
front of this committee.

   STATEMENT OF HON. DAN GLICKMAN, PRESIDENT AND CEO, MOTION 
                 PICTURE ASSOCIATION OF AMERICA

    Mr. Glickman. Thank you, Senator. First of all, it is a 
pleasure having my first testimony before Congress before a 
Kansas, before a friend, and on this particular subject, and 
sitting next to my friend and mentor Jack Valenti, the father 
of the movie ratings system.
    Actually, you understated his time at MPAA. He has been 
here 38 years. I know he looks impossibly young to have been 
here that long.
    Senator Brownback. Right.
    Mr. Glickman. I am here as much to learn as to be with you. 
But this is a very important subject and I would just have a 
couple of things to say, then would like to let the other 
witnesses talk about this. This is a very important issue to 
me, to the parents of this country, and it is one that 
obviously, working with Jack, I am going to be intensely 
involved with.
    Senator Brownback. Dan, get that mike a little closer to 
you.
    Mr. Glickman. Yes. There are a couple of themes I would 
just like to mention quickly. One is the technical proficiency 
of young people with technology. This is a different world than 
when I was growing up or even perhaps when you were growing up, 
where our children, even children below the teenage years, have 
greater familiarity with technology than Ph.D.'s in technology 
might have had 20 or 30 years ago. Therefore, that issue will 
have a lot to do with what technology is used, how the ratings 
systems are dealt with in the future, because in many, if not 
most, cases children know more about their technology than 
their parents ever will or are ever going to be able to do 
that.
    Second of all, the media choices before an average American 
are truly staggering in number, hundreds of choices available 
on a television set today and probably that will grow in the 
future.
    The third thing, of course, is the hectic pace of American 
life can be overwhelming for many parents. Just coping and 
surviving with the economic challenges that are there have 
positioned a lot of parents not to be in a situation 
necessarily where they are on top of or capable of watching 
their kids at all particular times. So advance cautionary 
information about entertainment options for children have in my 
mind assumed even more importance than they have before.
    We take pride in the ratings system, the movie ratings 
system, which Jack designed. He designed it thoughtfully and 
creatively and basically the people who actually do the ratings 
are parents themselves, and I think it explains why the system 
has been so good and for so long.
    So in summary, I just would say that I am in the learning 
mode right now, but I appreciate the opportunity of being here 
to talk about a subject which I know is so important to you 
personally, but also to parents all over this country.
    Thank you very much.
    Senator Brownback. Thank you very much. We appreciate that.
    I next call Patricia Vance, the President of the 
Entertainment Software Rating Board, and I appreciate your 
being here today and your presentation.
    [The prepared statement of Mr. Glickman follows:]

  Prepared Statement of Hon. Dan Glickman, President and CEO, Motion 
                     Picture Association of America
    On behalf of the members of the Motion Picture Association, Inc., I 
want to express my gratitude to Chairman Brownback and the members of 
the Subcommittee for convening this hearing.
    As you may know, this is my first hearing as the President and CEO 
of the Motion Picture Association of America and I am very pleased that 
the subject covered by my first Congressional hearing in this position 
is media ratings. I say this because I am not just the head of the 
Association that gave birth to the most familiar media ratings system 
on the planet but because I am a father, a grandfather and a consummate 
consumer of movies who has benefited from the motion picture ratings 
system for decades. I am very proud to represent the Association 
responsible for this success story.
    Today children are often more proficient with technology and 
consumer electronics than their parents. The media choices facing an 
average American family are truly staggering in number. The hectic pace 
of American life can be overwhelming for many parents. For these 
reasons, advance, cautionary information about entertainment options 
for children have, in my mind, assumed more importance than ever 
before.
    The Motion Picture Association of America takes pride in the fact 
that the movie ratings system is recognized, familiar and such an 
engrained part of our popular culture that it is known and recognized 
by 98 percent of American moviegoers. Its triumph is owed to its 
simplicity. It is a common language that every parent speaks and easily 
understands. A movie rating is included--along with the reasons the 
rating was selected for that film--in all advertising for films. It is 
the dominant system for advance cautionary information about movies.
    This phenomenal success is owed largely to the man sitting next to 
me today. I realize that Jack Valenti, my predecessor, needs no 
introduction. He is, as you know, quite literally the father of the 36 
year-old movie ratings system. He was instrumental in the development, 
implementation and continuing oversight of the TV Parental Guidelines. 
Any Congressional hearing on the issue of media ratings would be 
incomplete without his participation and insight and I am thankful that 
he has agreed to continue his leadership of the movie ratings system 
and share his knowledge with us today.
                                 ______
                                 
  Prepared Statement of Jack Valenti, Former Chairman and CEO, Motion 
                     Picture Association of America

                   The Voluntary Movie Rating System

How It All Began
    When I became President of the Motion Picture Association of 
America (MPAA) in May 1966, the slippage of Hollywood studio authority 
over the content of films collided with an avalanching revision of 
American mores and customs.
    By summer of 1966, the national scene was marked by insurrection on 
the campus, riots in the streets, rise in women's liberation, protest 
of the young, doubts about the institution of marriage, abandonment of 
old guiding slogans, and the crumbling of social traditions. It would 
have been foolish to believe that movies, that most creative of art 
forms, could have remained unaffected by the change and torment in our 
society.
A New Kind of American Movie
    The result of all this was the emergence of a ``new kind'' of 
American movie--frank and open, and made by filmmakers subject to very 
few self-imposed restraints.
    Almost within weeks in my new duties, I was confronted with 
controversy, neither amiable nor fixable. The first issue was the film 
``Who's Afraid of Virginia Woolf,'' in which, for the first time on the 
screen, the word ``screw'' and the phrase ``hump the hostess'' were 
heard. In company with the MPAA's general counsel, Louis Nizer, I met 
with Jack Warner, the legendary chieftain of Warner Bros., and his top 
aide, Ben Kalmenson. We talked for three hours, and the result was 
deletion of ``screw'' and retention of ``hump the hostess,'' but I was 
uneasy over the meeting.
    It seemed wrong that grown men should be sitting around discussing 
such matters. Moreover, I was uncomfortable with the thought that this 
was just the beginning of an unsettling new era in film, in which we 
would lurch from crisis to crisis, without any suitable solution in 
sight.
    The second issue surfaced only a few months later.
    This time it was Metro-Goldwyn-Mayer, and the Michelangelo 
Antonioni film ``Blow-Up.'' I met with MGM's chief executive officer 
because this movie also represented a first--the first time a major 
distributor was marketing a film with nudity in it. The Production Code 
Administration in California had denied the seal of approval.
    I backed the decision, whereupon MGM distributed the film through a 
subsidiary company, thereby flouting the voluntary agreement of MPAA 
member companies that none would distribute a film without a Code seal.
    Finally, in April 1968, the U.S. Supreme Court upheld the 
constitutional power of states and cities to prevent the exposure of 
children to books and films that could not be denied to adults.
    It was plain that the old system of self-regulation, begun with the 
formation of the MPAA in 1922, had broken down. What few threads there 
were holding together the structure created by Will Hays, one of my two 
predecessors, had now snapped. From the very first day of my own 
succession to the MPAA President's office, I had sniffed the Production 
Code constructed by the Hays Office. There was about this stern, 
forbidding catalogue of ``Dos and Don'ts'' the odious smell of 
censorship. I determined to junk it at the first opportune moment.
    I knew that the mix of new social currents, the irresistible force 
of creators determined to make ``their'' films and the possible 
intrusion of government into the movie arena demanded my immediate 
action.
    Within weeks, discussions of my plan for a movie rating system 
began with the president of the National Association of Theatre Owners 
(NATO) and with the governing committee of the International Film 
Importers & Distributors of America (IFIDA), an assembly of independent 
producers and distributors.
    Over the next five months, I held more than 100 hours of meetings 
with these two organizations, as well as with guilds of actors, 
writers, directors and producers, with craft unions, with critics, with 
religious organizations, and with the heads of MPAA member companies.
The Birth of the Ratings
    By early fall, I was ready. My colleagues in the National 
Association of Theatre Owners joined with me in affirming our objective 
of creating a new and, at the time, revolutionary approach to how we 
would fulfill our obligation to the parents of America.
    My first move was to abolish the old and decaying Hays Production 
Code. I did that immediately. Then on November 1, 1968, we announced 
the birth of the new voluntary film rating system of the motion picture 
industry, with three organizations, NATO, MPAA, and IFIDA, as its 
monitoring and guiding groups.
The initial design called for four rating categories:
G for General Audiences, all ages admitted;
M for mature audiences--parental guidance suggested, but all ages 
        admitted;
R for Restricted, children under 16 would not be admitted without an 
        accompanying parent or adult guardian; (later raised to under 
        17 years of age, (and varies in some jurisdictions));
X for no one under 17 admitted.
    The rating system trademarked all the category symbols, except the 
X. Under the plan, anyone not submitting his or her film for rating 
could self apply the X or any other symbol or description, except those 
trademarked by the rating program.
    Our original plan had been to use only three rating categories, 
ending with R. It was my view that parents ought to be able to 
accompany their children to any movie the parents choose, without the 
movie industry or the government or self-appointed groups interfering 
with their rights. But NATO urged the creation of an adults only 
category, fearful of possible legal redress under state or local law. I 
acquiesced in NATO's reasoning and the four category system, including 
the X rating, was installed.
    So, the emergence of the voluntary rating system filled the vacuum 
provided by my dismantling of the Hays Production Code. The movie 
industry would no longer ``approve or disapprove'' the content of a 
film, but we would now see our primary task as giving advance 
cautionary warnings to parents so that parents could make the decision 
about the movie-going of their young children.
Changes in the Rating System
    We found early on that the M category (M meaning ``Mature'') was 
regarded by most parents as a sterner rating than the R category. To 
remedy this misconception, we changed the name from M to GP (meaning 
General audiences, Parental guidance suggested). A year later we 
revised the name to its current label, ``PG: Parental Guidance 
Suggested.''
    On July 1, 1984, we made another adjustment. We split the PG 
category into two groupings, PG and PG-13. PG-13 meant a higher level 
of intensity than was to be found in a film rated PG. Over the past 
years, parents have approved of this amplifying revision in the rating 
system.
    On September 27, 1990, we announced two more revisions.
    First, we introduced brief explanations of why a particular film 
received its R rating. Since, in the opinion of the Ratings Board, R 
rated films contain adult material, we believed it would be useful to 
parents to know a little more about that film's content before they 
allowed their children to accompany them. Sometime later we began 
applying the explanations in the PG, PG-13 and NC-17 categories as 
well. These explanations are available to parents at the theater (by 
telephone or at the box office), in certain media reviews and listings, 
and also made available on the MPAA's World Wide Web Home Page on the 
Internet. This Internet address is http://www.mpaa.org.
    Second, we changed the name of the X category to NC-17:NO ONE 17 
AND UNDER ADMITTED. The X rating over the years appeared to have taken 
on a surly meaning in the minds of many people, a meaning that was 
never intended when we created the system. Therefore, we chose to 
reaffirm the original intent of the design we installed on November 1, 
1968, in which this ``adults only'' category explicitly describes a 
movie that most parents would want to have barred to viewing by their 
children. That was and is our goal, nothing more, nothing less.
    We have now trademarked ``NC-17:NO ONE 17 AND UNDER ADMITTED'' so 
that this rating symbol and the legend can be used only by those who 
submit their films for rating.
The Purpose of the Rating System
    The basic mission of the rating system is a simple one: to offer to 
parents some advance information about movies so that parents can 
decide what movies they want their children to see or not to see. The 
entire rostrum of the rating program rests on the assumption of 
responsibility by parents. If parents don't care, or if they are 
languid in guiding their children's movie-going, the rating system 
becomes useless. Indeed, if you are 18 or over, or if you have no 
children, the rating system has no meaning for you. Ratings are meant 
for parents, no one else.
    The Rating Board does not rate movies on their quality or lack of 
quality. That is a role left to film critics and audiences. Had we 
attempted to insert ourselves into judging whether a film is ``good'' 
or ``bad'' or ``indifferent'' we would have collapsed the system before 
it began.
    The criteria that go into the mix which becomes a Rating Board 
judgment are theme, violence, language, nudity, sensuality, drug abuse, 
and other elements. Part of the rating flows from how each of these 
elements is treated on-screen by the filmmaker. In making their 
evaluation, the members of the Ratings Board do not look at snippets of 
film in isolation but consider the film in its entirety. The Rating 
Board can make its decisions only by what is seen on the screen, not by 
what is imagined or thought.
    There is no special emphasis on any one of these elements. All are 
considered. All are examined before a rating is applied. Contrary to 
popular notion, violence is not treated more leniently than any of the 
other material. Indeed many films rated X in the past and NC-17 now, 
have at least tentatively been given the ``adults only'' rating because 
of depictions of violence. However, most of the directors/producers/
distributors involved have chosen, by their decision, to edit intense 
violent scenes in order to receive an R rating.
How The Ratings Are Decided
    The ratings are decided by a full-time Rating Board located in Los 
Angeles. There are 8-13 members of the Board who serve for periods of 
varying length. They work for the Classification and Rating 
Administration, which is funded by fees charged to producers/
distributors for the rating of their films. The MPAA President chooses 
the Chairman of the Rating Board, thereby insulating the Board from 
industry or other group pressure. No one in the movie industry has the 
authority or the power to push the Board in any direction or otherwise 
influence it. One of the highest accolades to be conferred on the 
rating system is that from its birth in 1968 to this hour, there has 
never been even the slightest jot of evidence that the rating system 
has ever deliberately fudged a decision or bowed to pressure. The 
Rating Board has always conducted itself at the highest level of 
integrity. That is a large, honorable, and valuable asset.
    There are no special qualifications for Board membership, except 
the members must have a shared parenthood experience, must be possessed 
of an intelligent maturity, and most of all, have the capacity to put 
themselves in the role of most American parents so they can view a film 
and apply a rating that most parents would find suitable and helpful in 
aiding their decisions about their children's moviegoing.
    As the MPAA President, I take no part in rating decisions, and do 
not overrule or dissuade the Board from any decisions it makes.
    No one is forced to submit a film to the Board for rating, but the 
vast majority of producers/distributors do in fact submit their films 
for ratings. Any producer/distributor who wants no part of any rating 
system is free to go to the market without any rating at all or with 
any description or symbol they choose as long as it is not confusingly 
similar to the G, PG, PG-13, R, and, NC-17. The rating symbols are 
federally-registered certification marks of the MPAA and may not be 
self-applied.
The Board Votes on Ratings
    The Board views each film. Each member present estimates what most 
parents would consider to be that film's appropriate rating. After 
group discussion, the Board votes on the rating. Each member completes 
a rating form spelling out his or her reason for the rating.
    Each rating is decided by majority vote.
    The producer/distributor of a film has the right under the rules to 
inquire as to the ``why'' of the rating applied. The producer/
distributor also has the right, based on the reasons for the rating, to 
edit the film--if that is the choice of the producer/distributor--and 
come back to the Board to try for a less severe rating. The reedited 
film is brought back to the Board and the process goes forward again.
Appeal of Ratings
    A producer/distributor who for any reason is displeased with a 
rating can appeal the decision to the Rating Appeals Board, which sits 
as the final arbiter of ratings.
    The Appeals Board comprises 14 to 18 members who serve terms of 
varying length. They are men and women from the industry organizations 
that govern the rating system.
    They gather to view the film and hear the appeal. After the 
screening, the producer/distributor whose film is being appealed 
explains why he or she believes the rating was wrongly decided. The 
chairman of the Rating Board states the reason for the film's rating. 
The producer/distributor has an opportunity for rebuttal.
    After Appeals Board members question the two opposing 
representatives, they are excused from the room. The Board discusses 
the appeal and then takes a secret ballot. It requires a two-thirds 
vote of those present to overturn a Rating Board decision.
    By this method of appeal, decisions of the Rating Board can be 
examined and any rating deemed a mistake set right.
    The decision of the Appeals Board is final and cannot be appealed.
What The Ratings Mean
G: ``General Audiences-All Ages Admitted.''
    This is a film which contains nothing in theme, language, nudity 
and sex, violence, etc. which would, in the view of the Rating Board, 
be offensive to parents whose younger children view the film. The G 
rating is not a ``certificate of approval,'' nor does it signify a 
children's film.
    Some snippets of language may go beyond polite conversation but 
they are common everyday expressions. No stronger words are present in 
G-rated films. The violence is at a minimum. Nudity and sex scenes are 
not present; nor is there any drug use content.
PG: ``Parental Guidance Suggested. Some Material May Not Be Suitable 
        For 
        Children.''
    This is a film which clearly needs to be examined or inquired into 
by parents before they let their children attend. The label PG plainly 
states that parents may consider some material unsuitable for their 
children, but the parent must make the decision.
    Parents are warned against sending their children, unseen and 
without inquiry, to PG-rated movies.
    The theme of a PG-rated film may itself call for parental guidance. 
There may be some profanity in these films. There may be some violence 
or brief nudity. But these elements are not deemed so intense as to 
require that parents be strongly cautioned beyond the suggestion of 
parental guidance. There is no drug use content in a PG-rated film.
    The PG rating, suggesting parental guidance, is thus an alert for 
examination of a film by parents before deciding on its viewing by 
their children.
    Obviously such a line is difficult to draw. In our pluralistic 
society it is not easy to make judgments without incurring some 
disagreement. So long as parents know they must exercise parental 
responsibility, the rating serves as a meaningful guide and as a 
warning.
PG-13: ``Parents Strongly Cautioned. Some Material May Be Inappropriate 
        For 
        Children Under 13.''
    PG-13 is thus a sterner warning to parents to determine for 
themselves the attendance in particular of their younger children as 
they might consider some material not suited for them. Parents, by the 
rating, are alerted to be very careful about the attendance of their 
under-teenage children.
    A PG-13 film is one which, in the view of the Rating Board, leaps 
beyond the boundaries of the PG rating in theme, violence, nudity, 
sensuality, language, or other contents, but does not quite fit within 
the restricted R category. Any drug use content will initially require 
at least a PG-13 rating. In effect, the PG-13 cautions parents with 
more stringency than usual to give special attention to this film 
before they allow their 12-year-olds and younger to attend.
    If nudity is sexually oriented, the film will generally not be 
found in the PG-13 category. If violence is too rough or persistent, 
the film goes into the R (restricted) rating. A film's single use of 
one of the harsher sexually-derived words, though only as an expletive, 
shall initially require the Rating Board to issue that film at least a 
PG-13 rating. More than one such expletive must lead the Rating Board 
to issue a film an R rating, as must even one of these words used in a 
sexual context. These films can be rated less severely, however, if by 
a special vote, the Rating Board feels that a lesser rating would more 
responsibly reflect the opinion of American parents.
    PG-13 places larger responsibilities on parents for their 
children's movie-going. The voluntary rating system is not a surrogate 
parent, nor should it be. It cannot, and should not, insert itself in 
family decisions that only parents can, and should, make. Its purpose 
is to give prescreening advance informational warnings, so that parents 
can form their own judgments. PG-13 is designed to make these parental 
decisions easier for films between PG and R.
R: ``Restricted, Under 17 Requires Accompanying Parent Or Adult 
        Guardian.''
    In the opinion of the Rating Board, this film definitely contains 
some adult material. Parents are strongly urged to find out more about 
this film before they allow their children to accompany them.
    An R-rated film may include hard language, or tough violence, or 
nudity within sensual scenes, or drug abuse or other elements, or a 
combination of some of the above, so that parents are counseled, in 
advance, to take this advisory rating very seriously. Parents must find 
out more about an R-rated movie before they allow their teenagers to 
view it.
NC-17: ``No One 17 And Under Admitted.''
    This rating declares that the Rating Board believes that this is a 
film that most parents will consider patently too adult for their 
youngsters under 17. No children will be admitted. NC-17 does not 
necessarily mean ``obscene or pornographic'' in the oft-accepted or 
legal meaning of those words. The Board does not and cannot mark films 
with those words. These are legal terms and for courts to decide. The 
reasons for the application of an NC-17 rating can be violence or sex 
or aberrational behavior or drug abuse or any other elements which, 
when present, most parents would consider too strong and therefore off-
limits for viewing by their children.
Appraisal
    In any appraisal, what is ``too much?'' becomes very controversial. 
How much is ``too much'' violence? Are classic war films too violent 
with scenes of marines storming a beach and slaying hundreds, wounding 
thousands? Is it the graphic cop killing, the gangster shoot-out, or 
the slap across the face of a woman that determines ``too much''? How 
much is ``blood spilled'' to be given emphasis? Where is the line to be 
drawn between ``this is alright'' and ``this is not alright''?
    The same vexing doubts occur in sex scenes or those where language 
rises on the Richter scale, or where behavior not considered ``normal'' 
is revealed on the screen. What follows is disagreement, inevitable, 
inexorable, and oftentimes strident. That is what the rating system has 
to endure and confront. We understand that. We try to do our level best 
so that most parents would find our ratings mostly accurate and mostly 
useful.
    But, importantly, we urge and implore parents to care about what 
their children see and watch, to focus their attention on movies so 
they can know more about a film before they consent to their children 
watching it.
    To oversee the Rating Board, the film industry has set up a Policy 
Review Committee consisting of officials of MPAA and NATO. These men 
and women set guidelines for the Rating Board to follow, and make 
certain that the Board carries them out reasonably and appropriately.
    Because the rating program is a self-regulatory apparatus of the 
film industry, it is important that no single element of the industry 
take on the authority of a ``czar'' beyond any discipline or self-
restraint.
Advertising and Trailer Policy
    Film advertising is part of the film industry's self-regulatory 
mechanism. All advertising for rated motion pictures must be submitted 
to the Advertising Administration for approval prior to its release to 
the public. This includes, but is not limited to, print ads, radio and 
TV spots, pressbooks, videocassette packaging and theatrical and home 
video trailers.
    Trailers are an important aspect of the program. They are approved 
for ``all audiences,'' which means they may be shown with all feature 
films, or ``restricted audiences'', which limits their use to feature 
films rated R or NC-17. There will be, in ``all audience'' trailers, no 
scenes that caused the feature to be rated PG, PG-13, R or NC-17.
    Each trailer carries at the front a tag which tells two things: (1) 
the audience for which the trailer has been approved, and (2) the 
rating of the picture being advertised. The tag for ``all audience'' 
trailers will have a green background; the tag for ``restricted'' 
trailers will have a red background. The color is to alert the 
projectionist against mismatching trailers with the film being shown on 
the theater screen.
How the Rating System Is Used By Theater Owners and Video Retailers
    Motion picture theater owners, who co-founded the rating system in 
1968, were the first group in the entertainment industry to voluntarily 
enforce its guidelines. NATO estimates that the majority of the theater 
owners in the Nation observe the rating system.
    In the mid-1980s, as watching movies on videocassettes at home 
soared in popularity, video retailers joined theater owners in 
embracing the voluntary guidelines of the rating system. Parents who 
relied on the rating system to determine which films their children 
viewed in theaters found the information provided by the rating 
classifications equally helpful in home video. To facilitate its use, 
ratings are displayed on both the videocassette package and the 
cassette itself.
    The Video Software Dealers Association (VSDA), which is the major 
trade association for video retailers in the United States, has adopted 
a ``Pledge to Parents'' which strongly endorses the observance of the 
voluntary movie rating system by video retailers.
The Public Reaction
    We count it crucial to make regular soundings to find out how the 
public perceives the rating program, and to measure the approval and 
disapproval of what we are doing.
    Nationwide scientific polls, conducted each year by the Opinion 
Research Corporation of Princeton, New Jersey, have consistently given 
the rating program high marks by parents throughout the land. The 
latest poll results show that 76 percent of parents with children under 
13 found the ratings to be ``very useful'' to ``fairly useful'' in 
helping them make decisions for the movie-going of their children.
    On the evidence of the polls, the rating system would not have 
survived if it were not providing a useful service to parents.
    The rating system isn't perfect but, in an imperfect world, it 
seems each year to match the expectations of those whom it is designed 
to serve--parents of America.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   STATEMENT OF PATRICIA E. VANCE, PRESIDENT, ENTERTAINMENT 
                     SOFTWARE RATING BOARD

    Ms. Vance. My pleasure. I just have to link this up. OK, 
there we go.
    Before I begin--can you hear me?
    Senator Brownback. Yes. Get that a little closer if you 
would, Patricia. That would be great.
    Ms. Vance. I just want to thank you, Chairman Brownback, 
for the attention you have shown over the years to the 
critically important issues being discussed today and also for 
your past praise of the ESRB rating system.
    I am going to start my remarks this afternoon by providing 
background on how the ESRB rating system came into being. Ten 
years ago the games industry created the ESRB with one central 
mission: to provide parents and consumers at large with the 
information they need to make educated purchase decisions when 
it comes to computer and video games. The rating system, 
although voluntary, has been universally adopted by game 
publishers and retailers alike. Today virtually all computer 
and video games sold in the U.S. carry an ESRB rating.
    After consulting a wide range of child development and 
academic experts, analyzing other rating systems, and 
conducting nationwide research, the founders of the ESRB 
concluded that parents wanted two elements in a rating system, 
that is age-based categories and, equally if not more 
importantly, objective and detailed information about what is 
in a game.
    Based on this research, the ESRB rating system was created, 
consisting of rating symbols for age appropriateness on the 
front of the game packaging, and on the back content 
descriptors stating why a game received a particular rating or 
indicating content that may be of interest or concern. There 
are five age-based rating categories, ranging from early 
childhood to adults only, and over 30 content descriptors 
currently in use.
    In rating nearly 1,200 games each year, raters must 
consider a wide range of content elements. There are few hard 
and fast rules when it comes to rating games. The manner in 
which a particular act is depicted, the context in which it 
occurs, the intensity of the image itself, and the degree of 
player, which is unique to our rating system, all can greatly 
affect the assignment of a rating.
    To ensure that the ratings we assign reflect the standards 
of average American consumers, every year ESRB commissions 
Peter Hart Research to survey parents across the U.S. Last year 
this research found that parents agreed or even thought our 
ratings were too strict 84 percent of the time, the highest 
ever.
    Furthermore, as you know, Chairman Brownback, a new survey 
released by the Henry J. Kaiser Family Foundation last week 
found that the majority of parents thought the ESRB ratings 
were very useful. They also thought the ESRB rating system was 
the most effective among all rating systems.
    While most games still carry an E rating, over the past few 
years we have seen a gradual increase in the teen and mature 
categories. Some critics feel that the ESRB rating standards 
have become more lax over time, commonly referred to as 
``ratings creep.'' In fact, if ratings creep were occurring the 
reverse trend would be seen. Instead, we believe the shift we 
are experiencing is attributed to the aging demographic of 
today's gamer. Two-thirds of gamers today are over 18 and the 
average age is 29. It naturally follows that the industry would 
produce more games targeted at older consumers, who now make up 
a majority of the market.
    Further, the Subcommittee asked that I comment on universal 
ratings. Though I understand its appeal, candidly I have 
serious concerns about creating a uniform system of ratings. 
Fundamentally, I do not believe there is anything confusing or 
unclear about ESRB ratings. Quite the contrary, research 
indicates that they are both easily understood and useful to 
parents.
    Some have even suggested that game ratings be based on a 
numerical count of particular types of content, such as acts of 
violence. Trying to quantify content in an interactive medium, 
when players control the frequency of actions and the outcome 
of events themselves, is particularly impractical. Moreover, 
Mr. Chairman, the recent Kaiser study concludes that a clear 
majority of parents surveyed think a single ratings system is 
unnecessary.
    Finally, I want to direct your attention to the extensive 
efforts we are making to raise consumer awareness in use of the 
ratings system. We agree that it is vital. According to a study 
conducted by the Federal Trade Commission, parents are involved 
in the purchase or rental of games 83 percent of the time. 
Keeping this in mind, last fall we launched a multi-channel 
consumer marketing campaign targeting parents. The campaign is 
composed of a public service announcement and a retail 
partnership program. To date, I am happy to report that the 
campaign continues to generate broad exposure from both media 
and retail partners.
    We are also pleased that industry and ESRB efforts to 
encourage retailers to prevent the sale of mature-rated games 
to minors are taking root. We encourage Congress to support 
these efforts to further raise consumer awareness and 
responsible use of the ratings system.
    Thanks for inviting me here today and I welcome any 
questions you may have.
    [The prepared statement of Ms. Vance follows:]

Prepared Statement of Patricia Vance, President, Entertainment Software 
                          Rating Board (ESRB)
    Mr. Chairman, I appreciate the opportunity to appear today to 
present an overview of the ESRB rating system and more broadly discuss 
the critically important issues surrounding the most effective ways to 
inform consumers, especially parents, about the content of the 
entertainment their families consume.
Background
    The ESRB has been in existence for ten years. It was created in 
1994 with one central mission: to provide parents and consumers at 
large with the information they need to make informed computer and 
video game purchase decisions. Today, we remain extremely proud of the 
ESRB rating system and the information it provides to parents. Indeed, 
the Federal Trade Commission and leading policymakers have praised it 
for its effectiveness and comprehensiveness. The rating system, 
although voluntary, has been universally adopted by the industry and 
today virtually all computer and video games sold in the U.S. carry an 
ESRB rating. In fact, most retailers in the U.S. refuse to stock games 
that do not carry an ESRB rating.
    After consulting a wide range of child development and academic 
experts, analyzing other rating systems, and conducting nationwide 
research, the founders of the ESRB concluded what parents really wanted 
from a video game rating system were both age-based categories and, 
equally if not more importantly, objective and detailed information 
about what's in the game. Parents surveyed agreed that a rating system 
should inform and suggest, not prohibit. Respondents also agreed that 
the rating system should not attempt to quantify objectionable 
incidents; instead it should reflect the overall content and objective 
of the game.
The ESRB Rating System
    Based on the research conducted in 1994, the ESRB rating system was 
created with two equally important parts: 1) easily identifiable rating 
symbols, found on the front of game packaging, suggesting the most 
appropriate age group for each game, and 2) content descriptors, found 
on the back of game packaging, clearly stating why a game received a 
particular rating or indicating content that may be of interest or 
concern.
    Here's an illustration of the two parts:
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    The five ESRB rating categories include:

  <bullet>  EC--Early Childhood means the game may be suitable for ages 
        3 and older, and is specifically designed for young children.

  <bullet>  E--Everyone means the game may be suitable for ages 6 and 
        older. E--rated games may contain minimal cartoon-like violence 
        or comic mischief, and are generally appropriate for a wide 
        range of audiences.

  <bullet>  T--Teen means that the content may be suitable for ages 13 
        and older, and may contain violence, limited amounts of strong 
        language, or suggestive themes.

  <bullet>  M--Mature means that content may be suitable for ages 17 
        and older and may contain sexual themes, intense violence, or 
        strong language.

  <bullet>  AO--Adults Only means that the product is intended only for 
        ages 18 and over.

    Over 30 different content descriptors are currently in use. They 
span various categories of concern to parents, including but not 
limited to violence, language, suggestive or sexual content, and use of 
controlled substances
    As a point of reference, of the 1,176 games rated by the ESRB in 
2003, 57 percent were rated E--Everyone and 32 percent were rated T--
Teen. Games rated M--Mature represented 10 percent of games rated, with 
EC--Early Childhood representing most of the remaining 1 percent.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Ratings Creep?
    Comparing the above data to prior years shows that the E for 
Everyone category has been declining slightly each year, while the Teen 
and Mature categories has been gradually increasing. It's not 
surprising that there are more Teen and Mature games because over the 
last decade the core audience for games has steadily aged. In fact, 
today, the core audience is 18-35 years old and the average age of game 
players is now 29 years old. Thus, it is perfectly logical to see game 
publishers create more titles aimed at this older consumer.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This upward shift in ratings assigned would refute assumptions that 
some critics have made about ``ratings creep'' in our system, since 
evidence of ``ratings creep'' would suggest that lower categories are 
getting larger, not smaller. But, just to be sure, as a test, we 
recently selected ten top-selling Teen and Mature-rated games from five 
years ago and ran them through our standard rating process to determine 
if they would receive the same ratings today. Raters had no idea they 
were evaluating 5-year old game titles. The results of the test were 
that all ten games received the same ratings they had originally 
received.
Recent Improvements
    As we have done periodically since establishing the ESRB ratings 
system, last year, the ESRB took several pro-active steps to further 
ensure that consumers are getting the most out of the rating system. 
One step was to add several new content descriptors to provide greater 
nuance in several categories. Four new descriptors in the violence 
category alone were added to the system. A second pro-active step taken 
was to increase the visibility of the content descriptors on the back 
of every game box. This was achieved by repeating the rating symbol on 
the back of the box next to the content descriptors in an authoritative 
``seal''. All games shipped to stores in the last year carry this new 
``seal''. And the third step the ESRB took to increase the 
effectiveness of the rating system was to add the age ``17+'' to the 
M--Mature rating symbol and 18+ to the AO--Adult Only rating symbol, so 
consumers more clearly understand the specific age range we are 
suggesting.
    Senator Joe Lieberman, who has worked closely with Chairman 
Brownback on issues related to media violence and monitoring the video 
game industry's ratings and marketing practices, remarked of these 
enhancements, ``I appreciate the ESRB's ongoing commitment to helping 
parents make smart choices for their kids. I hope parents will return 
the favor by making better use of these better ratings, for in the end 
they have the primary responsibility to protect their kids. . ..''
Rating Process
    So, what is the process for assigning ratings? In order to have a 
game certified with an ESRB rating, software publishers fill out a 
detailed questionnaire explaining exactly what's in the game. This 
questionnaire is submitted to ESRB along with actual videotaped footage 
of the game and relevant supplementary materials (e.g., soundtracks, 
cheat codes, scripts). The video footage must not only accurately 
represent the final product as a whole, but it must also show the most 
extreme content of the game. In the event that the ESRB discovers 
undisclosed pertinent content that would have affected a rating after a 
product has shipped, enforcement measures can be taken, including the 
imposition of significant fines and corrective actions (e.g., re-
stickering or recalling product).
    Once the submission is received and checked for completeness, a 
minimum of three raters independently view video footage of each game 
and, for every scene, as well as the overall product, recommend a 
rating and content descriptors they deem most appropriate. ESRB 
compares the raters' recommendations to make sure there is consensus. 
Usually, the raters agree on an overall age rating and their 
recommendation becomes final. However, when the raters recommend 
different ratings, additional raters will review the game in order to 
reach consensus. Once consensus on a rating is reached, ESRB issues an 
official rating certificate to the game's publisher. If a publisher is 
not satisfied with the rating issued, it may re-submit the game with 
changes and the process starts anew.
    In rating a game, raters must consider a wide range of content 
elements including but not limited to violence, sex, humor, language, 
and use of controlled substances. There are few hard and fast rules 
when it comes to rating games. The manner in which a particular act is 
depicted, the context in which it occurs, the intensity of the image 
itself, and the degree of player control (unique to our rating system) 
all can greatly affect which rating category and content descriptor(s) 
ultimately are assigned to the game. Some have suggested that game 
ratings be based on a numerical count of particular types of content, 
such as acts of violence. I cannot say if this would work in other 
media. But trying to quantify content in an interactive medium when 
players control the frequency of actions and the events themselves is 
particularly impractical and pointless. Those who have played or 
studied video games universally recognize that the element of player 
control makes the medium and consequently its rating system unique.
    It is critical to note that ESRB raters have no ties to the 
industry and are specially trained by us to rate computer and video 
games. Most ESRB raters have prior experience with children, either as 
parents, caretakers, or through prior work and education. They are 
part-time employees of the ESRB, and typically attend one rater session 
per week. The ESRB strives to recruit raters who are demographically 
diverse by age (must be over 21), martial status, sex, race, and 
cultural background to reflect the U.S. population overall.
Research
    In order to ensure that the ratings we assign reflect the standards 
of average American consumers, we conduct consumer research on an 
annual basis in ten different markets across the U.S. This research has 
consistently shown that parents overwhelmingly agree with the ratings 
that we apply. Peter D. Hart Research Associates, a nationally renowned 
independent opinion research firm, tests randomly selected video games 
rated during the prior 12 months with parents of children between the 
ages of 6 and 17. We show parents clips of actual game footage and ask 
what rating they would apply. Then, we compare their responses to the 
actual rating assigned by the ESRB.
    Last year this research found that parents agreed, or even thought 
our ratings were too strict, 84 percent of the time. Parents described 
the actual ratings as ``about right'' in 77 percent of all instances 
and ``too strict'' 7 percent of the time. Ratings issued by watchdog 
groups like The National Institute on Media and the Family, with whom 
Chairman Brownback has worked closely over the years, also confirm that 
ESRB ratings are reliable and, in fact, NIMF's own ratings agree with 
ESRB an overwhelming portion of the time. We think that's pretty good. 
And we recognize that in a pluralistic society like ours, which 
encourages and embraces differences among its citizens, no rating 
system could ever achieve 100 percent popular consensus. However, it is 
clear that ESRB ratings are well within the American mainstream, and 
that's exactly where we want to be.
    Other opinion polls conducted by Hart Research show that parents 
not only agree with specific ESRB ratings, but that 90 percent of them 
say the ESRB rating system provides the kind of information they need. 
Moreover, approximately 75 percent say it's an effective tool that 
helps parents shield their children from inappropriate game content.
    Supporting the Hart research is a new survey released by the Henry 
J. Kaiser Family Foundation last week, which found that among all 
entertainment rating systems (TV, movies, music, and games), parents 
found the ESRB ratings to be the most useful, with 91 percent finding 
them ``somewhat (38 percent)'' to ``very useful'' (53 percent).
    Of course, some have expressed concern about some aspects of the 
ESRB system. We respect these concerns and have worked hard to maintain 
a dialogue with any and all persons who care about giving parents 
accurate ratings information. Like anything else, though, it is 
important for observers to look beyond the headlines and carefully 
examine the methodologies of those who have issued studies critical of 
the ESRB or other systems. For example, the headline of the Harvard 
press release earlier this year publicizing Professor Kimberly 
Thompson's study of Teen games reads, ``Ratings of Teen-rated video 
games do not always fully describe content.'' Sounds pretty ominous. 
But in truth, Professor Thompson concluded that 95 percent of instances 
of violence found in games included in the study were properly labeled 
by the ESRB. In other words, in the category of greatest concern among 
parents, ESRB content descriptors were applied to virtually all of the 
81 games included in the study.
    The Harvard study also suggested that ESRB was not issuing content 
descriptors labeling other relevant content. For example, the study 
stated that a game depicting a character holding a non-lit pipe--not 
smoking it--should have a ``Use of Tobacco'' content descriptor. Here 
we have an honest disagreement about rating theory and standards. ESRB 
raters would not have applied a ``Use of Tobacco'' descriptor in this 
case because the content was not significant from a contextual 
standpoint, and characters were not actually smoking. Similarly, unlike 
the Harvard researchers, we would not apply a ``Reference to Alcohol'' 
descriptor if a couple of unmarked bottles appear on a table in a 
scene. Our consumer research leads us to conclude that neither would 
most parents. All this said, I have great regard for Professor Thompson 
and I believe she is committed to helping us enhance the ESRB rating 
system and we welcome a continuing dialogue with her and others.
Universal Ratings
    The Subcommittee asked that I comment on the issue of universal 
ratings. Candidly, I have serious concerns about this idea, though I 
understand its appeal. In the case of video game ratings, I think it is 
clear that our system is well received and considered effective and 
easily understood by consumers. Moreover, there is little evidence that 
consumers are confused by the current media rating systems. What is 
confusing about a game with a Mature 17+ rating with an Intense 
Violence content descriptor? It is not complicated or difficult for a 
consumer today to understand what type of video game they are 
purchasing. At a minimum, by picking up a box, checking the ratings 
information and looking at the title, images, screen shots and 
descriptions right on the packaging, it's hard to imagine a consumer 
would not know what he or she is getting. And a recent study by the 
Henry J. Kaiser Family Foundation confirms that nearly six out of ten 
parents surveyed think a single rating system is unnecessary.
    I would also be concerned about whether it is even practical to 
develop a coherent single rating system that actually does simplify 
information for consumers. All media are not the same. Motion pictures 
and television programs usually involve visual depictions of real 
actors on film in realistic situations; music consists of auditory and 
occasionally visual elements. Music, film, and TV are passive media. 
But games are interactive. This element of player control makes games 
unique among entertainment media and it is not at all clear to me that 
one could devise a single system that could accurately or effectively 
capture the different aspects of various entertainment media.
Raising Consumer Awareness
    Hopefully, by now you have a better understanding of the ESRB 
rating system, how it was developed, how we apply ratings, and what 
consumers think about those ratings. Now, I want to direct your 
attention to the extensive efforts we are making to raise consumer 
awareness and use of the rating system.
    First, it's important to define who the ``consumer'' is. According 
to a study conducted by the Federal Trade Commission in September 2000, 
parents are involved in the purchase or rental of games 83 percent of 
the time. The ESA has found in similar research that adults make 90 
percent all game purchases. Regardless of the data source used, it is 
clear that, parents are either involved in or ultimately making the 
decision about what games their kids are playing an overwhelming 
majority of the time.
    Keeping in mind the significant role parents play in making 
purchase decisions, the ESRB launched a multi-channel consumer 
marketing campaign in October 2003 featuring the slogan ``Ok To Play?--
Check The Ratings''. The campaign, composed of a public service 
announcement (PSA) and a retail partnership program, encourages parents 
to use both components of the rating system (rating symbols and content 
descriptors) to determine if a game is appropriate for their family.
    During the first six months of the campaign's launch, the print PSA 
campaign (see attached ad) generated more than 500 million gross 
consumer impressions. 5 of the top 10 consumer magazines including TV 
Guide, Better Homes and Gardens, Good Housekeeping, Family Circle, and 
Ladies' Home Journal, plus Entertainment Weekly, Redbook, Parents, 
Working Mother, and Disney Adventures have run the print PSA. More than 
a dozen top game enthusiast publications have also supported the 
campaign, and over 20 websites have run an online banner version of the 
ad. Furthermore, several major national retailers (e.g., Wal-Mart, Toys 
R Us, EB Games) have included a ``ratings legend'' that ties into the 
campaign in their print circulars and catalogues.
    The second critical part of our consumer awareness campaign is the 
launch of a unique retail partnership program. The goal of the program 
was to ensure that when consumers were shopping for computer and video 
games that they would be educated about and reminded to check the 
ratings. But rather than send posters or stand-alone brochures to 
stores that consumers may not notice, we succeeded in getting 12 of the 
top 14 retailers of games in the US, representing over 85 percent of 
all sales, to incorporate ratings education into their in-store display 
fixtures. All participating retailers, including Wal-Mart, Best Buy and 
Toys R Us to mention some of the largest, have re-printed and installed 
new signs for their game displays this year. ESRB has also provided 
these retailers with training materials for sales associates to learn 
about the rating system, and signage supporting store policies 
restricting the sale of Mature rated games (see attached store sign 
composite). .
    Since launching the retail partnership program, the ESRB has 
conducted audits measuring compliance from retailers in displaying ``Ok 
To Play?--Check The Ratings'' and store policy signage. The most recent 
information from last month, which surveyed more than 4,100 store 
locations from six chains, indicated that 62 percent of stores were 
displaying their signs.
    Recently, the ESRB expanded the retail partnership program to 
include local independent retailers and cyber cafe businesses, working 
closely with the Video Software Dealers Association (VSDA) and iGames 
to help penetrate these hard-to-reach outlets.
    We encourage the Chairman, Subcommittee members and Congress to 
support these efforts to further raise consumer awareness and use of 
the rating system.
Other ESRB Activities
    On a final note, ESRB work does not begin and end at ratings. In 
addition to the Rating Board, the ESRB is responsible for the 
oversight, compliance, and enforcement of industry-adopted advertising 
and marketing guidelines. This is performed through the Advertising 
Review Council (ARC) of the ESRB, which publishes the industry's 
Principles and Guidelines for Responsible Advertising Practices 
defining standards for responsible advertising practices, and providing 
information on enforcement, complaint resolution, appeals, and 
compliance. Additionally, specific marketing rules are codified in the 
ESRB Advertising Code of Conduct, addressing everything from the 
required size of rating icons on game boxes to the audience composition 
of media vehicles in which M--Mature rated ads may appear. All 
publishers of games certified with an ESRB rating are legally bound to 
these marketing guidelines.
    The ESRB diligently monitors compliance with guidelines and in the 
event that a game publisher inappropriately labels or advertises a 
product; the ESRB is empowered to compel corrective actions and impose 
a wide range of sanctions, including monetary fines where appropriate.
    In 1999, the ESRB launched the Privacy Online division in order to 
assist industry companies in the development and ongoing management of 
the online collection and use of personal information. The FTC endorsed 
the Privacy Online program as a ``safe harbor'' under the Children's 
Online Privacy Protection Act (COPPA). The division services companies 
in the development of privacy policies, ongoing monitoring and 
enforcement of stated practices, privacy complaint filtering and 
processing, employee training, and continuing consultation.
Closing Statement
    I hope this testimony provides a clearer and broader understanding 
of the ESRB than when you arrived today. Thank you for inviting me here 
today and I'm grateful to have the opportunity to explain what we do 
and how we do it. We take great pride in our work and the service we 
provide to parents and other consumers of computer and video games. I 
look forward to having a constructive dialogue with members of the 
Committee and answering any questions that you may have.
    Thank you.

    Senator Brownback. Thank you, Ms. Vance. We appreciate that 
presentation.
    Next we would like to go to Mr. Anthony Podesta, Co-Chair 
of the Podesta Mattoon Group and here on the television rating 
system. Mr. Podesta, thank you for being here.

           STATEMENT OF ANTHONY T. PODESTA, EXECUTIVE

SECRETARIAT, ON BEHALF OF THE TV PARENTAL GUIDELINES MONITORING 
                             BOARD

    Mr. Podesta. Mr. Chairman, thank you very much for inviting 
the TV Parental Guidelines organization to be here at this 
hearing today. I am reminded of the old adage after following 
Mr. Valenti and Mr. Glickman that everything has been said, but 
not everyone has said it. But I will give you a little more 
information on how the ratings system came to be what it is.
    In the Telecommunications Act of 1996, the Congress invited 
the entertainment industry to come together and create a 
voluntary ratings system. Led by Mr. Valenti and Decker Anstrom 
of the NCTA and Eddie Fritts of the Broadcasters Association, 
they convened a meeting of some three dozen individuals from 
all across the entertainment industry, including all of the 
major companies and guilds and the like and went through a 
series of meetings on a weekly basis that went on for hours and 
hours and hours and hours trying to sort out the complicated 
issues that were before us.
    That group met over the course of the summer of 1996 with 
academic experts, with religious experts, with child advocacy 
experts, and across that period of time tried to hear from as 
many people as possible on this. In December 1996, the TV 
parental guidelines were announced by Mr. Valenti in a meeting 
at the White House and in meetings with the Congressional 
leaders here on Capitol Hill.
    We produced a system that had a small number of characters. 
We have the characters on the boards behind us: ``TV-Y'' and 
``TV-Y7'' for children's programming, ``TV-G,'' ``TV-PG,'' 
``TV-14,'' and ``TV-MA'' for non-children's programming. There 
was considerable discussion about that simple system and some 
in the advocacy community thought that it would be helpful to 
provide more information to parents. Another series of meetings 
were had. There were hearings on Capitol Hill.
    Indeed, in addition to the consultations that were had in 
1996 there were a series of negotiations between the child 
advocacy community and the entertainment industry, which led 
finally to an agreement by the advocates and by the industry to 
add descriptors to the system. So there is ``S'' for ``sexual 
content,'' ``L'' for ``language,'' ``D'' for ``suggestive 
dialogue,'' and ``V'' for ``violence.'' All of those are 
appended to certain programs.
    That ratings system as modified was presented to the FCC 
and is now embedded in every television set that has been 
produced 13 inches or larger, and it is hard-wired into 
literally millions of television sets that have been in the 
marketplace and in people's homes across the country.
    Today some 2,000 hours a day of television programming are 
rated under this system, everything with the exception of news 
and sports and commercial, commercial matter. The ratings 
appear for 15 seconds at the front of each program.
    Let me spend a minute as well, if I may, Mr. Chairman, on 
the Monitoring Board. As a result of these discussions that we 
had in 1997, a board was founded, and we have been the 
secretariat of that board since its foundation, to bring 
together entertainment industry representatives and people from 
the child and parent and psychological and medical and 
religious community.
    Today that board is composed--indeed, Mr. Valenti and Ms. 
Miller are members of that board. We are the institution that 
is there to guarantee the integrity of the system. At the 
beginning people were uncertain about what it meant. The board 
meets periodically, twice a year normally, but upon the call of 
the chairman as well in the event that there is a need for 
review of how a particular program has been rated.
    The purpose of the board is to serve as a mechanism that 
parents or individuals or researchers or anybody else could 
say, there is a mistake being made here. Indeed, in the period 
in the early days of the TV rating system we had several 
complaints, and indeed the board met, reviewed programming, and 
in a couple of occasions actually encouraged the program 
runner, the broadcaster, the cable network, to re-rate the show 
in a more strict or cautionary fashion, and indeed that did 
occur.
    The board also has a second function, which is to educate 
parents. We have run thousands of 30-second spots on virtually 
every broadcast and cable television network in the country 
over these past 7 or 8 years, trying to educate parents about 
this rating system. We have an annual effort at the National 
PTA Convention to try to bring the TV rating system to the PTA 
and to try to have its local organizations educate parents 
about this. We take that public education effort very seriously 
and work at it very hard.
    We appreciate this opportunity and I am happy to answer any 
of your questions.
    [The prepared statement of Mr. Podesta follows:]

  Prepared Statement of Anthony T. Podesta, Executive Secretariat, on 
         Behalf of the TV Parental Guidelines Monitoring Board
    Good afternoon. Thank you, Chairman Brownback and Ranking Member 
Breaux for the opportunity to testify today on behalf of the TV 
Parental Guidelines Monitoring Board. As the Executive Secretariat of 
the Monitoring Board, I am grateful for the chance to discuss the TV 
Parental Guidelines and answer any questions you may have about the 
television ratings system.
    The TV Parental Guidelines is a voluntary rating system that gives 
parents information about the age-appropriateness and content of 
television programs. Used in conjunction with the V-chip, which is now 
standard in all TV sets 13 inches and larger, the TV ratings allow 
parents to block out programming they think is unsuitable for their 
children. The system is an effective tool to help parents supervise the 
programming that comes into their homes.
    Every segment of the entertainment industry was involved in the 
creation of the TV guidelines, including national broadcast networks; 
affiliated, independent and public television stations nationwide; 
cable programmers; producers and distributors of cable programming; 
syndicators; entertainment companies; and members of the creative 
guilds representing writers, directors, producers and actors. They all 
came together to collaborate on the development of the ratings system. 
As you can imagine, this was no small feat.
    Led by the Motion Picture Association of America, the National 
Association of Broadcasters, and the National Cable & 
Telecommunications Association, this first-ever collaboration among the 
entertainment industry had one clear goal: to devise a TV ratings 
system that was easy to understand, easy to use, and effective. The 
industry knew that parents were the primary audience for this ratings 
system, and its efforts focused on creating a tool that would help 
parents monitor and supervise what their children were watching on 
television. After several months of consultation both inside the 
television industry and with other groups that had an interest in the 
TV ratings, the industry announced the TV Parental Guidelines in 
December of 1996. This age-based system had six categories--two 
exclusively for children's programming--TV-Y and TV-Y7, and four for 
general audience programming--TV-G, TV-PG, TV-14 and TV-MA. Each 
category had a corresponding detailed description of the content that 
might be found in programming carrying that rating.
    After a period of public comment, during which parents expressed 
interest in having more information about the content of programs, the 
industry agreed to revisit the system to determine how this information 
could be provided. During the spring and early summer of 1997, industry 
leaders had extensive discussions not only with parents, but also with 
national children's and parents' advocacy groups as well as medical, 
religious, and educational groups. Among the groups involved in these 
discussions were the National Parent Teacher Association (PTA), the 
National Education Association (NEA), the American Psychological 
Association (APA), the American Medical Association (AMA), the Center 
for Media Education (CME), the Children's Defense Fund (CDF), the 
American Academy of Pediatrics (AAP), Children Now, the American 
Psychiatric Association (APA) and the National Association of 
Elementary School Principals (NAESP).
    These groups spent hundreds of hours on this process, and it was 
important to the integrity of the system that a majority of them 
supported the final product. The result of these discussions was that 
television programming would continue to fall into one of the six 
categories (TV-Y, TV-Y7, TV-G, TV-PG, TV-14, and TV-MA), but that 
content labels would be added where appropriate. These content labels 
are FV for fantasy violence, which is used exclusively for TV-Y7 
programs; V for violence; S for sexual content; L for language; and D 
for suggestive dialogue. These last four labels are used in the general 
audience categories of TV-PG, TV-14 and TV-MA.
    On July 10, 1997, the revised ratings system was ratified by 
leading family and children's advocacy groups, as well as television 
broadcasters, cable systems and networks, and television production 
companies. Congress signaled support for the system and agreed to give 
it a chance to work. And, after accepting public comments on the 
system, the FCC deemed the TV Parental Guidelines ``acceptable'' in 
March of 1998.
    In addition to coming together to create the guidelines, the 
industry also devised a process for implementing them. Because of the 
huge amount of programming involved--some 2,000 hours a day--the 
industry volunteered to review the programming and apply the guidelines 
episode-by-episode to avoid blanket ratings for a program that might be 
accurate one week, but not the next. Today, aside from news, sports, 
and advertising, everything you see on television has been rated by the 
industry, and the information is available for parents to use.
    In order to give parents real-time information about a program's 
rating, the ratings icons and associated content symbols--for example, 
TV PG-V--appear in the upper left-hand corner of the screen for 15 
seconds at the beginning of all rated programs. The ratings information 
is also included in published television listings and appears in 
electronic program guides.
    In order to ensure that the TV ratings are applied accurately and 
consistently, the industry created the TV Parental Guidelines 
Monitoring Board. When the Board receives widespread and verifiable 
criticism about a specific program's rating, it reviews the program and 
makes recommendations about the appropriate rating to the relevant 
parties.
    When the TV Parental Guidelines were implemented, the industry knew 
that to be effective, parents and others needed to understand what the 
ratings meant and how to use them. The industry undertook a 
comprehensive public education campaign that we continue to build on 
today. Industry trade associations, individual broadcast and cable 
networks, affiliates, cable operators, and independent television 
stations have produced public service announcements to educate the 
public and promote the TV Parental Guidelines and parental controls. 
Millions of dollars have been spent on public service advertising, and 
the industry has made substantial investments to update the TV Parental 
Guidelines website and brochure. The brochure is available in both 
English and Spanish. In addition, each year, the Monitoring Board hosts 
a booth at the annual PTA Convention and distributes information on the 
ratings system.
    We have seen the results of this public education campaign 
firsthand. Parents send their questions, concerns, and suggestions 
about the ratings system to the Monitoring Board. Over the years, we 
have received more than 2,500 letters, e-mails or phone calls about the 
guidelines.
    Virtually all of the negative feedback about the ratings came at 
the beginning of the implementation process. The positive effects of 
the industry's outreach efforts can be seen in the type of feedback we 
receive. We have not had any recent complaints about how a television 
program is rated. We know from our own polling and from surveys done by 
organizations like the Kaiser Family Foundation, that parents find the 
system helpful.
    The TV Ratings System was created in conjunction with a broad 
cross-section of public advocacy groups to provide parents with a 
useful tool to help supervise the television programming that comes 
into their homes. We believe it serves that purpose. We understand that 
educating parents about this system is an ongoing process, and the 
industry remains committed to playing a continuing role in this 
process.
    Chairman Brownback, Ranking Member Breaux, thank you for the 
opportunity to testify before your Committee on the TV Parental 
Guidelines. I look forward to answering any questions you may have on 
the system.

    Senator Brownback. Thank you, Mr. Podesta. I do have some 
questions I want to raise with you on this system when we get 
to the discussion.
    Mr. Kinney, Chief Executive Officer of the PSVratings 
group. Mr. Kinney, thank you for joining us, this is a private 
ratings group, and we look forward to your testimony.

 STATEMENT OF DAVID G. KINNEY, PRESIDENT AND CEO, PSVratings, 
                              INC.

    Mr. Kinney. Good afternoon, Chairman Brownback, and thank 
you for inviting me to testify today.
    I am relatively new to Washington. I am David G. Kinney, 
founder and President of PSVratings, as well as the Chair of 
the Coalition for Independent Rating Services. Let me say a 
word about each, please.
    The Coalition for Independent Rating Services brings 
together five competitive organizations that provide 
independent ratings. The coalition members include PSVratings, 
Critics Inc./kids-in-mind.com, Coalition for Quality Children's 
Media/KIDSFIRST!, Family Style Film Guide, and Grading the 
Movies.
    The coalition's goal is to increase dialogue and awareness 
about the value of independent rating systems among 
policymakers and the public at large. The coalition recently 
submitted comments to the FCC on the impact of violent 
programming on children. The coalition noted its support for an 
open V-Chip, which would allow consumers to access ratings 
systems of their choice, including independent competitive 
systems like ours.
    We plan to participate in the FCC's rulemaking on 
interactivity and digital television and to work with partners 
in the industry toward an open V-Chip that could one day allow 
consumers, not merely to block violent programming, but watch 
programming that meets their preselected preferences for family 
viewing.
    That is what independent rating services are all about. We 
do not produce content. We simply provide information about the 
content. As such, independent rating systems provide a market-
based solution to supplement industry-based rating systems such 
as MPAA, RIAA, and ESRB with the independent information 
consumers want and truly need.
    As the CEO of a corporation that has invested millions of 
dollars into the technology that enables us to meet the 
consumer demand and do it objectively, I can say that in fact 
the existing industry-based rating systems most assuredly do 
not adequately meet the demands of the consumer. In fact, 
parents do not want to be told what the entertainment industry 
thinks is suitable for their children. Parents want reliable 
information that will enable them to make that decision for 
themselves.
    Today's hearing begs the question of whether or not it is 
possible to create a solution that can meet the needs of 
parents and consumers while protecting the freedom of 
expression of the entertainment industry. The answer is yes, it 
is possible. The solution is information.
    I speak specifically for PSVratings when I say that we 
believe that the entertainment industry should be free to 
express themselves as they deem appropriate, but common sense 
dictates that social responsibility requires that freedom of 
expression be balanced with freedom of information.
    The Committee has asked about the scientific process for 
developing ratings. I cannot speak to the process for the other 
members of the coalition, but I conceived the PSVratings system 
and spearheaded its development. Please allow me to summarize 
how the precise system that Dr. Thompson envisions in her study 
can actually work.
    Our solution, called ``PSVratings,'' provides parents and 
all consumers with comprehensive, accurate, and objective 
information about the profanity, sex, and violence in media, 
and it does so without judgment or calls for censorship. As you 
can see, we use a universally recognized traffic light, color-
coded to alert consumers to the level of profanity, sex, and 
violence in the media.
    When viewed in relation to existing industry-based ratings 
systems, parents can immediately see the different levels of 
profanity, sex, and violence in similar industry-based ratings. 
As you can see, there is a great divergence in the levels of 
profanity, sex, and violence even among movies given the same 
industry ratings.
    Consumers can now go to currentattractions.com to access 
more comprehensive information about the levels and amounts of 
profanity, sex, and violence content, as well as the context in 
which it was used. As you can see, the PSVratings system offers 
relevant content-specific information which can greatly benefit 
not just the consumer, but film makers and studios as well. By 
clarifying and simplifying the decisionmaking process, 
PSVratings supports the entertainment industry's effort to 
reach the family audience. Moreover, with this technology-based 
solution studios and distributors could have the option of 
presenting multiple versions of their offerings with various 
levels of profanity, sex, and violence and thus open up 
additional channels of distribution, such as to airlines, 
schools, etcetera.
    As to the scientific process for developing ratings, the 
PSVratings system employs algorithms governing in excess of 
3,000 descriptor rules and over 10 million potential rule 
combinations, managed by a board of experts in child psychology 
and education. Their job is to ensure that the PSVratings 
system factors in child development.
    While the technology behind the PSVratings system is very 
complex, as you can see, the consumer interface and display of 
data could not possibly be more user-friendly or simple to use.
    The Committee has also asked whether a more uniform system 
for all forms of media is needed. Among the benefits of 
PSVratings is that we have developed a system that is 
universally applicable to all media. PSVratings began with a 
focus on the home video-DVD market, both because parents rent 
and buy more videos than any other market segment and because 
we were fairly successful at obtaining screeners. We have now 
expanded to box office releases, but admittedly still cannot 
provide the public with the information they seek until the end 
of the first day of release without prior access to the movie 
content.
    We are also working on video games and music and will soon 
be providing ratings for these media as well. In terms of 
online media, we have also developed the capability to monitor 
and rate chatrooms in real time, as well as a strategy for 
rating Internet sites and keeping those ratings updated.
    Finally, I would like to offer that the PSVratings system 
could also be applied to television and make V-Chip programming 
tailored to the sensitivities and maturity levels of everyone 
in the household as easy as selecting a level of profanity, 
sex, and violence, if again we could get prior access to the 
content.
    I will close now by stating that I look forward to the 
opportunity of working with the Committee and my fellow 
panelists in implementing solutions that protect children by 
providing parents with the information they need to make 
informed purchase and rental decisions, while at the same time 
protecting freedom of speech and the intellectual property of 
content producers against piracy.
    On behalf of the Coalition for Independent Ratings Services 
and PSVratings, I thank you.
    [The prepared statement of Mr. Kinney follows:]

 Prepared Statement of David G. Kinney, President and CEO, PSVratings, 
                                  Inc.
    Good morning Chairman McCain, Chairman Brownback, Senators. Thank 
you for inviting me to testify today. I am David G. Kinney, founder and 
President of PSVratings, Inc., as well as the Chair of the Coalition 
for Independent Ratings Services. The Coalition for Independent Ratings 
Services brings together five organizations that provide independent 
ratings. The Coalition members include:

  <bullet>  PSVratings, Inc.

  <bullet>  Critics, Inc./kids-in-mind.com

  <bullet>  Coalition for Quality Children's Media/KIDS FIRST! (CQCM)

  <bullet>  Family Style Film Guide; and

  <bullet>  Grading the Movies

    The fact that these independent ratings systems exist and are used 
by concerned parents and others is evidence of the public's demand for 
more information than currently is being provided by the industry's 
systems.
Executive Summary
    The Coalition's goal is to increase dialogue and awareness about 
the value of independent ratings systems among policymakers and the 
public at large. To this end, the Coalition recently submitted comments 
to the FCC's on its proceeding on the impact of violent programming on 
children. The Coalition noted its support for an open V-chip, which 
would allow consumers to access rating systems of their choice, 
including independent, competitive systems like ours. We plan to 
participate in the FCC's Further Notice of Proposed Rulemaking on 
interactivity in digital television, to work with partners in the 
industry towards an open V-chip that could one day allow consumers not 
merely to block violent programming, but have programming that meets 
their pre-selected preferences be suggested for family viewing. For 
instance, the PSVratings system could enable parents to program their 
V-chip by simply selecting the level of Profanity, Sex and Violence 
they deem appropriate for their children based upon the individual 
maturity level and sensitivities of each of their children.
    My company, PSVratings, is a supplement to industry-based ratings 
systems such as the MPAA, RIAA, and ESRB systems. I have been asked to 
come here and testify today on whether the existing ratings systems are 
effective in assisting consumers in discerning what is appropriate 
entertainment for their children. To that end, let me emphasize that we 
are a private corporation that has invested millions of dollars into 
technology that enables us to fill a void in the marketplace for the 
data that parents and consumers demand specifically because the 
existing industry based ratings systems do not, in fact, fulfill the 
information requirements of parents and consumers. In fact, we have 
found that parents do not want to be told what the industry thinks is 
suitable for their children. They want objective information to make 
that decision for themselves. I have attached our market research to my 
testimony, in order to be fully responsive to the Committee's questions 
on the effectiveness of the industry's systems.
    Our solution, called the PSVratings system, provides parents and 
indeed all consumers with comprehensive, accurate and objective 
information about the: Profanity, Sex and Violence in media. We use a 
universally recognized traffic light, color-coded to alert consumer to 
the level of content in each category. When viewed on our consumers 
website, called Current Attractions (www.currentattractions.com), 
consumers can access more comprehensive information about the nature of 
content in those categories.\1\ The PSVratings system offers relevant, 
content-specific information. Such data can greatly benefit not just 
the consumer, but filmmakers and studios as well. By clarifying and 
simplifying the caregiver decision-making process, PSVratings supports 
the entertainment industry's effort to reach the family audience. 
Moreover, with this technology-based solution, studios and distributors 
could have the option of presenting multiple versions of their 
offerings with various levels of profanity, sex and violence and thus 
open up additional distribution channels, such as to airlines, after 
school programs, family restaurants, pediatric offices, etc.
---------------------------------------------------------------------------
    \1\ See Attachments rating the recently released films Anaconda 
(Screen Gems, Columbia Tri-Star Motion Picture Group 2004) and Cellular 
(New Line Cinema Productions 2004).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Committee has asked about the scientific process for developing 
ratings. With algorithms governing over 3,000 descriptor rules, 
resulting in over 10 million combinations, managed by a board of 
experts in child psychology and education, the PSVratings system is 
extremely complex. While the technology behind the PSVratings system is 
very complex, however, as you can see from the slides, the consumer 
interface and display of data could not possibly be more user-friendly 
or simple to use. In response to the Committee's interest in examining 
the process for developing ratings, I have included a more detailed 
description of this sophisticated process in an attachment to my 
testimony.
    The Committee has also asked whether a more uniform system for all 
forms of media is needed. The benefit of PSVratings is that we have 
developed a system that is universally applicable all media.
    PSVratings began with a focus on the home video/DVD market both 
because parents rent and buy more videos than any other market segment 
and because we were fairly successful at obtaining screeners. We have 
now expanded to box office releases. With respect to the Committee's 
question on systems providing consumers with effective information, our 
market research demonstrated that consumers ideally would like ratings 
information before the release day. However, we still cannot provide 
the public with the information they seek until the end of the first 
day of release, without prior access to the movie content. There is a 
great diversity in the nature of the content, even among movies given 
the same industry ratings. We also are working on video games and music 
and will soon be providing ratings for these media as well. We have 
developed the capability to monitor and rate chat rooms in real time, 
as well as developed a strategy for rating Internet sites and keeping 
those ratings updated. Finally, we could also apply our system to 
television if, as previously stated with respect to films, we could 
gain prior access to such content. Such access would of course be done 
in a manner consistent with protecting the content producers' 
intellectual property rights.
The Coalition
    The Coalition for Independent Ratings Services (``Coalition'') is a 
coalition of independent ratings service providers, including 
PSVratings, Inc., Critics, Inc./kids-in-mind.com, Coalition for Quality 
Children's Media/KIDS FIRST! (CQCM), FamilyStyle Film Guide, and 
Grading the Movies. The simple fact that so many competitive systems 
have developed in the last several years is evidence of consumers' 
demand for more information to help them determine the suitability of a 
particular film, TV show, video game, music CD or Internet site for 
their families. Independent ratings can provide objective information 
to consumers, because their market incentive is to satisfy consumer 
demand for effective information.
    Box office sales research reflects that PG-13 movies garner the 
highest receipts, so there are strong incentives in the industry to 
secure a PG-13 rating. Likewise, box office receipts decline with NC-17 
ratings, so there is a strong incentive to secure at least an R rating, 
instead of the economic-impactive NC-17 ratings. Box office receipt 
figures have a strong impact on additional box office attendance, and 
later on video distribution receipts. So there is a strong economic 
incentive to secure ratings that will attract broader audience, 
regardless of the actual content. In contrast, the independent ratings 
systems' top priority is to build trust in their product--objective 
information about the content of programming. With an independent 
ratings system, there is no conflict of interest between transparency 
and revenue maximization.
    The Coalition's goal is to increase dialogue and awareness about 
the value of independent ratings systems among policymakers and the 
public at large. To this end, the Coalition recently submitted comments 
to the Federal Communications Commission (FCC)'s proceeding on the 
impact of violent programming on children.\2\ The Coalition noted its 
support for an open V-chip, which would allow consumers to access 
rating systems of their choice, including independent, competitive 
systems like ours. We plan to participate in the FCC's Further Notice 
of Proposed Rulemaking on interactivity in digital television \3\, to 
work with partners in the industry towards an open V-chip that could 
one day allow consumers not merely to block violent programming, but 
have programming that meets their pre-selected preferences be suggested 
for family viewing.\4\ For instance, the PSVratings system could enable 
parents to program their V-chip by simply selecting the level of 
Profanity, Sex and Violence they deem appropriate for their children 
based upon the individual maturity level and sensitivities of each of 
their children.
---------------------------------------------------------------------------
    \2\ See In the Matter of Violent Television Programming And Is 
Impact on Children, Notice of Inquiry, MB Docket No. 04-261 (rel. July 
28, 2004) and Comments of Coalition for Independent Ratings Services in 
MB Docket No. 04-261, Notice of Inquiry In the Matter of Violent 
Television Programming And Is Impact on Children (Sep. 15, 2004) 
(available at www.indepen
dentratings.org).
    \3\ See News Release, Federal Communications Commission, FCC Adopts 
Children's Programming Obligations for Digital Television Broadcasters, 
MM Docket 00-167 (rel'd September 9, 2004).
    \4\ See also In The Matter of Second Periodic Review of the 
Commission's Rules and Policies Affecting the Conversion to Digital 
Television, MB Docket No. 03-15, RM 9832, Report and Order, at para. 
154-168 (discussing and adopting the Advanced Television Standards 
Committee (ATSC) Program System and Information Protocol (PSIP) 
standard into the FCC rules as part of the DTV advanced digital 
television standard) (rel'd September 7, 2004).
---------------------------------------------------------------------------
    The Coalition has already had some policy success working with the 
FCC to inform consumers of the availability of ratings systems 
independent of those developed by the industry. The Coalition commends 
the FCC's leadership in posting a link to the Coalition's website on 
the FCC's Parents Place page discussing TV Ratings.\5\ The Coalition 
has asked the FTC to likewise post a link to the Coalition on the FTC 
website page discussing entertainment ratings.\6\ Because the FTC 
covers a broader array of media product, beyond television program and 
including film and games, the Coalition hopes this Committee might 
encourage the FTC to likewise post a link to the Coalition--the only 
coalition organized to represent entertainment ratings providers 
independent of the industry--and thereby inform consumers of the 
availability of alternative ratings independent of those developed by 
content producers.
---------------------------------------------------------------------------
    \5\ See www.fcc.gov/parents/tvratings.html.
    \6\ See http://www.ftc.gov/bcp/conline/edcams/ratings/ratings.htm.
---------------------------------------------------------------------------
PSVratings, Inc.
    My company, PSVratings, is a supplement to industry-based ratings 
systems such as the MPAA, RIAA, and ESRB systems. We are a private 
corporation that has invested millions of dollars into technology that 
enables us to fill a void in the marketplace for the data that parents 
and consumers demand. We have found that parents do not want to be told 
what the industry thinks is suitable for their children. They want the 
information to to enable them to make that decision for themselves. I 
have attached our market research to my testimony, to be responsive to 
the Committee's questions on whether the industry's systems are 
``effective in assisting consumers in discerning what is appropriate'' 
for their children.
    Our solution, called the PSVratings system, provides parents and 
all consumers with comprehensive, accurate and objective information 
about the Profanity, Sex and Violence in media.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We use a universally recognized traffic light, color-coded to alert 
consumers to the level of content in each category. When viewed on our 
consumer website, called Current Attractions 
(www.currentattractions.com), consumers can access more comprehensive 
information about the nature of content in those categories. The 
PSVratings system offers relevant, content-specific information. Such 
data can greatly benefit not just the consumer, but filmmakers and 
studios as well. By clarifying and simplifying the parent decision-
making process, PSVratings supports the entertainment industry's effort 
to reach the family audience. Moreover, with this technology-based 
solution, studios and distributors could have the option of presenting 
multiple versions of their offerings with various levels of profanity, 
sex and violence and thus open up additional distribution channels, 
such as to airlines, after school programs, family restaurants, 
pediatric offices, etc.
    In fact, the creation, development and management of PSVratings is 
founded upon the conviction that filmmakers, producers and artists have 
an important right to express themselves through their creative works.
    At the same time, PSVratings believes that freedom of expression 
must be balanced with freedom of information. Consumers have a right to 
the information necessary to make informed purchase and rental 
decisions. PSVratings is dedicated to empowering parents, caregivers 
and consumers to make informed entertainment choices for themselves and 
their families, by giving them the objective information they need.
    The PSVratings system makes no judgment of suitability or 
appropriateness for any given audience or age group. We believe that 
suitability is an individual choice. We simply provide the 
comprehensive and objective information to enable consumers to make 
that choice based on their own individual standards of suitability.
Scientific Process for Developing Ratings
    I happened to have remarked during one of our company meetings a 
few years ago that in order for the PSVratings system to be as simple 
as possible for consumers on the front end, it would end up being 
extremely complex on the back end. That is true.
    With algorithms governing over 3,000 descriptor rules, resulting in 
over 10 million combinations, managed by a board of experts in child 
psychology and education, the PSVratings system is extremely complex. 
The five steps developed by PSVratings to produce objective media 
ratings are as follows:

  1.  The PSVratings Standard is managed by an independent board 
        comprised of child psychiatrists, child psychologists and 
        educators. This group of experts is responsible for the 
        application of ratings to the rules that underlie the 
        PSVratings system. While the ratings values of the PSVratings 
        system are intended only as a guideline as to the levels of 
        Profanity, Sex and Violence in media, consumers can be 
        confident that the guideline is based upon current research on 
        the impact of media on children. Thus, the PSVratings Standard 
        is built upon a foundation of scientific knowledge independent 
        of any commercial interest.

  2.  Data Capture Specialists are rigorously trained to `audit', as 
        opposed to `review', media and identify all instances of 
        Profanity, Sex and Violence without any judgment or 
        interpretation. Not only do they note the occurrence itself, 
        but they recognize relationship combinations for as many as 15 
        different character types (man, woman, teen, child, fantasy 
        figure, role model, etc), the relationship(s) between the 
        character types, the consequences of the occurrence, the level 
        of graphic detail and whether it is seen, heard or sensed.

  3.  Once the Data Capture process has been completed, every element 
        of the information is mapped to any or all of the applicable 
        rules in the PSVratings database. Data Mappers are extensively 
        trained in the process of locating and identifying the 
        appropriate rule(s) from the in excess of 3,000 rules and 10 
        million rule combinations. In instances in which a situation is 
        encountered for which there is no rule, a new rule will be 
        created and submitted to the PSVratings Standards Board for 
        approval and rating.

  4.  To ensure data integrity, the entire Data Capture process is 
        basically repeated by the Data Validation department. The Data 
        Validation department, however, works completely independent of 
        the Data Capture department. While Data Capture is dedicated to 
        ensuring comprehensive and accurate capture of data, Data 
        Validation is incentivized to find any possible errors by Data 
        Capture. Data Validation ensures that every instance is 
        captured, every instance is properly reported and every 
        instance is properly mapped.

  5.  The final step of the PSVratings process, prior to release, is a 
        comprehensive Data Integrity review of every reported and 
        mapped ratings instance. The Data Integrity division operates 
        independent of the Data Development (Data Capture and Data 
        Validation) division. Working with the PSVratings Standards 
        Board, the Data Integrity division has access to the rating of 
        the rules of the PSVratings Standard, but has no ability to go 
        back and change any of the data supplied by the Data 
        Development division. Thus, no individual can influence the 
        rating of an individual media title. Upon approval by Data 
        Integrity of the accurate mapping of all ratings instances, the 
        proprietary technology of the PSVratings system generates a 
        rating based upon a matching of the audit data with the rules 
        of the PSVratings Standard.
A Uniform Ratings System
    The Committee asked whether a more uniform system for all forms of 
media is needed. The benefit of PSVratings is that we have developed a 
system that is universally applicable to all media. While PSVratings 
has itself developed a uniform system, which we believe is more 
responsive to consumer needs than a plethora of different systems for 
different entertainment products, PSVratings discourages the Committee 
from considering a requirement that the industry generally develop a 
single system. Because of the conflict of interest in the industry 
between transparency and revenue maximization, PSVratings believe that 
independent ratings provide helpful competition and objective 
information that the consumer needs in making decisions about the 
suitability of a particular program or game for a member of their 
family. A mandate for a single, uniform system across the industry may 
very well, if coupled with any legal recognition of that single uniform 
system, marginalize competitive, independent systems that provide 
objective information free of any conflict of interest.
    With respect to PSVratings' uniform, universally applicable ratings 
system, we began with a focus on the home video/DVD market both because 
parents rent and buy more videos than any other market segment and 
because we were fairly successful at obtaining screeners. We have now 
expanded to box office releases. With respect to the Committee's 
question on systems providing consumers with effective information, our 
market research demonstrated that consumers ideally would like ratings 
information before the release day. However, we still cannot provide 
the public with the information they seek until the end of the first 
day of release, without prior access to the movie content. There is a 
great diversity in the nature of the content, even among movies given 
the same industry ratings. We also are working on video games and music 
and will soon be providing ratings for these media as well. We have 
developed the capability to monitor/rate chat rooms in real time, a 
strategy for rating Internet sites and keeping those ratings updated. 
We could also apply our system to television if, as with films, we 
could gain prior access to content.
Effective and Reliable Ratings Systems
    The data provided by PSVratings and other independent systems is 
useful for a number of audiences including but not limited to: parents 
making choices for their children; grandparents buying gifts for 
grandchildren; adults going on a first date or planning double-dates; 
child advocates, academics, researchers and government agencies doing 
research; studios analyzing the correlation between box office results 
and various levels and types of content; and retailers offering value 
added services for customers. Rating systems that are independent of 
the content producer can produce more reliable and therefore effective 
ratings for the above uses than the industries' own ratings, given the 
conflict of interest noted above.
Conclusion
    I look forward to working with the Committee and my fellow 
panelists on implementing solutions that protect children and improve 
consumers' experience by providing parents and others with the 
information they need, while at the same time, protecting freedom of 
speech and the intellectual property of content producers against 
piracy. On behalf of the Coalition for Independent Ratings Services and 
PSVratings, Inc., I thank the Chairmen and the Committee, and their 
staff, for holding this important hearing.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Brownback. I thank you, Mr. Kinney. That is very 
thoughtful and very provocative. I look forward to pursuing it 
more with you.
    Dr. Kim Thompson, Associate Professor and Director of Kids 
Risk Project at Harvard School of Public Health. Dr. Thompson, 
welcome.

 STATEMENT OF KIMBERLY M. THOMPSON, Sc.D., ASSOCIATE PROFESSOR 
   AND DIRECTOR, KIDS RISK PROJECT, HARVARD SCHOOL OF PUBLIC 
                             HEALTH

    Dr. Thompson. Thank you, Mr. Chairman, for inviting me to 
testify here today. I appropriate the opportunity and I 
appreciate your recognition of the important role of media in 
the lives of children, and I hope that this will be a beginning 
of some transition with the media ratings systems that we have 
today.
    Senator Brownback. I have five children. It is a very 
personal issue. I understand it very personally.
    Dr. Thompson. As a parent, a consumer, an educator, and an 
active academic researcher of media content, I am excited to 
have the opportunity to talk about the effectiveness of the 
ratings systems. Over the past several years my research group 
at the Harvard School of Public Health has conducted several 
studies that quantitatively evaluated the actual content of 
popular media, particularly products marketed to children. We 
focused our studies on ratings for younger audiences.
    The work includes rigorous peer-reviewed studies assessing 
violent content and depiction of substances in G-rated animated 
films, violence in E-rated and teen-rated video games, a 
comparison of content and ratings for teen-rated video games 
and analysis of movie content and ratings for films released in 
the last 10 years, and I am happy to provide details about any 
of those individual studies.
    The most recent one I think is the one that is of most 
interest to the Committee today, where we used data from the 
MPAA and two independent resource that watch the entire 
released movie and provide consistent and detailed content 
information to parents. Those are kids-in-mind and ScreenIt. We 
demonstrated quantitatively that ratings creep has occurred 
over the last decade and that today movies do contain 
significantly more violence, sexual content, and profanity on 
average than movies of the same age-based rating a decade ago.
    With today's children spending more time on average 
consuming media than in school, it is no doubt that the media 
serve as a powerful, pervasive, and persuasive influence in the 
lives of our children. One of the things that we researchers 
need to do is make sure that we are using science and evidence-
based research to understand the potential impacts of media, 
both positive and negative, on children's perceptions, 
attitudes, beliefs, and behaviors. I think that is one of the 
things that would be something to have more emphasis on, is 
really research in this area.
    Given the important role of media ratings as the current 
strategy in our self-regulatory system, it is critical that 
Congress ensure that the system is working and it does protect 
children. I want to emphasize that our self-regulatory system 
is one that gives us the freedom to create and the freedom to 
choose that are reflecting deeply held values by Americans. We 
have to remember that freedom really depends on responsibility 
and that is true when it comes to media as well.
    So based on my research, I do believe that the existing 
ratings systems provide very useful information to parents and 
it is not a surprise that in fact parents are saying that on 
the opinion polls. At the same time, we are not asking them 
what else they would like to see in the ratings. We are just 
asking them are they useful. I think there is certainly a lot 
more that we could ask parents and certainly learn from them if 
we delved into it more.
    I think one of the things that is interesting is to compare 
the existing ratings systems to provide some context for those. 
Right now the MPAA provides age-based ratings and non-
standardized rating reasons. So basically there is a set of 
categories that provide parents with standard age-based 
information, but the rating reasons are very welcome, very 
helpful, but not standardized, so it is not clear that parents 
know what to expect.
    I do think that the MPAA could easily provide standardized 
descriptions of content that would better inform parents about 
what to expect when they see a specific rating reason, kind of 
along the lines of what the ESRB does with its content 
descriptors.
    The ESRB system for video games also provides an age-based 
rating and content descriptors, and the ESRB does clearly 
define the content descriptors on our website--on its website. 
I think one of the things that is important about our studies 
is we have found what we have reported as some inconsistencies 
with respect to the application of those content descriptors 
and also a lack of transparency in how they are assigned. So 
some question as to whether or not all of the content is 
getting rated and also whether or not the fact that the ESRB is 
not actually playing the games as part of rating process is 
leading them to potentially miss content that might be of 
concern to parents.
    Finally, with respect to television ratings, I think they 
do present confusing information to parents and particularly 
with respect to the four content designations, the ``V,'' 
``S,'' ``L,'' and ``D.'' Those are assigned not necessarily 
consistently by networks. There does not seem to be a standard 
for those either. Those also only apply to the three highest 
age-based ratings of ``PG,'' ``TV-PG,'' ``TV-14,'' and ``TV-
MA,'' and they also mean different things depending on the age-
based rating. So there is certainly a lot of potential for 
confusion there and no information for parents about depiction 
of substances, which is something that the MPAA and the ESRB 
both provide.
    Where this all comes together for me is what we are calling 
now convergence of media. We are now seeing video games and 
movies and television products and they are all on the Internet 
and they are similarly produced or produced at the same time, 
often cross-marketed very heavily. In some cases we are seeing 
inconsistent ratings. So for example we will see a teen-rated 
video game associated with an M-rated movie, or a PG-13-rated 
movie with an M-rated video game.
    That makes it confusing for people when they are trying to 
tell their kids that this is something that seems OK or not OK, 
and you are getting these mixed signals. So I think that there 
is cross-media marketing happening. I think that is evolving. 
The media are evolving very quickly, and this is an area where 
I think there is an opportunity to try and explore universal 
rating systems, which is what we recommended in the paper, 
although I have to say I have not looked at the PSV system, nor 
have I endorsed that system. So I do not want to have people 
infer from your statement that that was the case.
    I do think that the bottom line is that we are already in 
the next generation of media and it is really time for us to 
take a look at whether or not we can make an improvement to the 
ratings systems, get rid of the alphabet soup that we see on 
the posters up there, and try to figure out whether we can have 
some more effective tools for parents.
    I think one of the biggest issues is that we do not have a 
rigorous research-based system. We do not have standard 
definitions. It is not clear what parents should expect, and 
that does mean that sometimes people are surprised. I think it 
is the industry's responsibility and I think that they are 
doing a good job. I just think that they could do a better job.
    So I want to be clear that I think that what we are talking 
about is improving and possibly changing in a way that just 
makes it easier, but also provides more information to parents.
    I really think it is all about incentives and making sure 
that we are creating the right incentives for everyone to act 
responsibly. Parents need to make good choices. The industry 
needs to provide good information. Everybody needs to do their 
part. That is what self-regulation depends on.
    I think I will wrap up by saying that Americans really need 
to realize that we do not have a national research agenda in 
this area. There are not very many academics who actually pay 
any attention to this particular topic. I think that this is a 
time when we should really seriously consider creating a 
national agenda that would help us use research and good 
science to guide our discussions about children and media, and 
in that regard I hope that the Senate will seriously consider 
the Children and Media Research Act and look at the 
opportunities to actually create incentives for good evidence 
to help us understand what positive and negative effects media 
might have on children.
    Thank you.
    [The prepared statement of Dr. Thompson follows:]

Prepared Statement of Kimberly M. Thompson, Sc.D., Associate Professor 
    and Director, Kids Risk Project, Harvard School of Public Health
    Statement of Kimberly M. Thompson, Sc.D., Associate Professor and 
Director, Kids Risk Project, Harvard School of Public Health and 
Children's Hospital Boston before the United States Senate Commerce 
Committee Subcommittee on Science, Technology, & Space Washington, D.C. 
September 28, 2004
    Mr. Chairman and members of the Subcommittee, thank you very much 
for recognizing the important role of media in the lives of children 
and for inviting me to present my views on the effectiveness of media 
ratings. As a parent, consumer, educator, and active academic 
researcher on media content, I welcome the opportunity to comment on:

        1. the effectiveness of the existing ratings systems for video 
        games, television, and motion pictures in assisting consumers 
        in discerning what is appropriate entertainment for their 
        children,

        2. the lack of a scientific and research-based process for 
        developing ratings, and

        3. the need for a more uniform and reliable ratings system for 
        all forms of media.

    Over the past several years, my research group at the Harvard 
School of Public Health has conducted several studies that 
quantitatively evaluated the actual content of popular media products 
marketed to children. This work includes rigorous peer-reviewed studies 
assessing the violent content and depiction of substances in G-rated 
animated films, violence in E-rated and T-rated video games, a 
comparison of content and ratings for T-rated video games, and an 
analysis of movie content and ratings for films released in the last 
ten years. Each of these studies yielded significant insights 
including:

  <bullet>  Every one of the 74 animated G-rated animated feature films 
        (100 percent) reviewed contained violence against another 
        character (http://www.kids
        risk.harvard.edu/faqs1.htm).1

  <bullet>  Nearly 60 percent of the 81 G-rated animated feature films 
        reviewed showed characters smoking and/or consuming alcoholic 
        beverages (http://www.kids
        risk.harvard.edu/faqs2.htm).2

  <bullet>  35 of the 55 (64 percent) E-rated (for ``Everyone'') video 
        games studied contained violence (http://
        www.kidsrisk.harvard.edu/faqs3.htm), with injuring characters 
        rewarded or required for advancement in 33 games (60 
        percent).\3\

  <bullet>  We observed content that could warrant an ESRB content 
        descriptor in 39 out of 81 games (48 percent) T-rated (for 
        ``Teen'') video games for which the ESRB had not assigned a 
        content descriptor, and we did not observe the content 
        indicated by an ESRB content descriptor within one hour of game 
        play for seven games. These games may be a source of exposure 
        to a wide range of unexpected content (http://
        www.kidsrisk.harvard.edu/faqs4.htm).\4\
  <bullet>  In the random sample of 81 T-rated video games we played:

    <ctr-circle> 79 games (98 percent) involved intentional violence, 
            representing 36 percent of game play time,

    <ctr-circle> 73 games (90 percent) rewarded or required the player 
            to injure characters,

    <ctr-circle> 56 games (69 percent) rewarded or required the player 
            to kill, and

    <ctr-circle> we observed 5,689 human deaths for these 81 games, 
            occurring at an average rate of 61 human deaths per hour of 
            game play time (http://www.kids
            risk.harvard.edu/faqs5.htm).\5\

  <bullet>  Using data from the MPAA and two independent resources that 
        watch the entire released movie and provide consistent and 
        detailed content information to parents (Kids-in-Mind and 
        Screen It!) we demonstrated quantitatively that ratings creep 
        occurred over the last decade, and that today's movies contain 
        significantly more violence, sexual content, and profanity on 
        average than movies of the same age-based rating (e.g., G, PG, 
        PG-13, R) a decade ago (http://www.kidsrisk.harvard.edu/
        faqs6.htm).\6\

    With today's children spending more time on average consuming media 
than in school, the media serve as powerful, pervasive, and persuasive 
influences in their lives. As the peer-reviewed, science-based research 
of my group and the studies of other researchers demonstrate, 
entertainment media represent an important source of exposure for 
children to messages that may positively or negatively affect their 
perceptions, attitudes, beliefs, and behaviors. Given the important 
role of the media ratings as the current strategy in our self-
regulatory system--a system that gives us all the freedoms to create 
and to choose media and that reflects values deeply held by all 
Americans--Congress must ensure that the system works and protects 
children. Freedom depends on responsibility.
Effectiveness of the existing ratings systems
    Based on my research, I believe that the existing ratings systems 
provide useful information for parents, but I also see large 
opportunities for improvement. Parents must currently grapple with an 
alphabet soup of rating symbols representing inconsistent approaches to 
rating media.
    The MPAA provides its age-based rating (e.g., G, PG, PG-13, R) and 
rating reasons. While the rating reasons provide some information about 
content and they are far superior to just giving parents the rating 
alone with no explanation, they do not necessarily tell all parents 
about all of the types of content that children might experience. The 
age-based ratings also reflect the relative standards of the anonymous 
members of a mysterious group and no standardized definitions for 
content exist. Could the MPAA provide a standard description of what 
the rating reasons mean so that parents really know what to expect (as 
intended by the content descriptors used by the ESRB)? Also, since many 
parents express concerns about the depiction of substances and 
normalization of substance use in media, could the MPAA provide an 
indication of whether or not the film includes depiction of substances? 
In our most recent study, we found that the MPAA mentioned alcohol or 
drugs in its rating reason for 18 percent of films, while Screen It! 
assigned a score above ``none'' for tobacco and/or alcohol/drugs for 95 
percent of films and above ``none'' for alcohol/drugs for 93 percent. 
What is the harm in providing transparent and consistent information 
about content so that parents can make their own well-informed choices 
about what media are appropriate for and with their children? Also, if 
ratings continue to creep, then parents need to know that they must 
stay calibrated. Creating standards so that parents know what to expect 
provides an important opportunity for the industry to help parents and 
to provide a level playing field for media producers. You can put 
anything you want into a movie, but that doesn't mean that you can 
market it inappropriately to children and expect no consequences.
    The ESRB system for video games similarly provides an age-based 
rating (e.g., E, T, M) and also provides content descriptors that the 
ESRB defines clearly on its website (www.esrb.org). Our studies 
suggest, however, some inconsistency in the application of these 
content descriptors and a lack of transparency in how they are 
assigned. Since the ESRB does not play the games prior to assigning a 
rating, the ESRB ratings by definition do not reflect full knowledge of 
the game content and leave raters without the opportunity to experience 
the full range of content that ultimately gets released in the final 
game. The ESRB requires game manufacturers to provide examples of the 
most extreme content, but do they do so? Should parents expect the 
content descriptors to provide information about all of the types of 
content in the games, or have the content descriptors now become more 
like the MPAA's rating reasons indicating only some of the content? 
With the information to parents very unclear on this, and parents and 
kids easily able to observe omissions as they experience actual game 
play, the ESRB should in my opinion focus more on ensuring the quality 
of its information and worry less about its advertising. Parents will 
use a system that they trust and that they find reliable, and perhaps 
the lack of use of ratings reflects a lack of trust.
    Television ratings (e.g., TV-Y, TV-Y7, TV-Y7-FV, TV-G, TV-PGTV-14, 
TV-MA) represent an area that I've spent the least amount of time 
studying as an academic. However, as a parent I can comment that I find 
it confusing that the same four content designations (V, S, L, D) 
assigned to the three highest age-based ratings (TV-PG, TV-14, TV-MA) 
mean different things depending on the age-based rating. Thus, with TV 
ratings parents must know the age-based rating and what the content 
designation means for that rating. I appreciate that TV uses some 
analogous symbols to movies, but why couldn't all of the age-based 
symbols used by all three of these media use the same symbols so that 
parents only need to know one set of these? Also, since individual 
networks and cable systems each assign their own ratings, should 
parents expect any consistency here? If parents can't expect 
consistency, then should we be surprised if they don't find the 
information very useful? Finally, the TV ratings provide no information 
about substances, something that the MPAA and the ESRB provide.
    This all comes together with the convergence of media and cross-
media marketing. In our studies we've noted high-profile media products 
with inconsistent ratings across media platforms that challenge parents 
who are trying to use the systems and that in my view undermine the 
collective authority of the rating boards. For example, we found that 
the T-rated video game Enter the Matrix game manual contained a $3 
rebate toward the purchase of the R-rated movie The Matrix on DVD, 
which clearly indicates the continued marketing of R-rated violent 
entertainment to children in spite of the Federal Trade Commission 
reports efforts to get producers to stop this. (Terminator 3 provides 
another example where the T-rated game includes discussion by the 
developers about the how the game provides an extension to the R-rated 
movie, and the PG-13 rated film The Chronicles of Riddick and M-rated 
video game The Chronicles of Riddick: Escape from Butcher Bay provide 
an example going the other direction.)
    The bottom line is, we're already in the next generation of media 
products, and it's time for the rating systems to come into this 
century so that they can be effective tools for today's parents.
Lack of a scientific and research-based process for developing ratings
    In my view, many of the current problems with the existing systems 
derive from a lack of a scientific and research-based foundation for 
providing ratings information. A rigorous system of ratings must begin 
with some standard definitions that can be used to classify content and 
to clearly and consistently inform parents. While these definitions and 
classifying content includes subjectivity, that's no excuse for not 
trying to be as objective as possible. Our studies have demonstrated 
that using consistent definitions can work and provide comparative 
information, and I believe that it's time for the industry to start to 
perform its own content analyses and accurately report the ingredients 
of its products to consumers. I believe that the industry can better 
label its products and in doing so help parents make better choices, 
and that this is required as media continue to push the boundaries and 
consume more time in the lives of our children.
Need for a more uniform and reliable ratings system for all forms of 
        media
    In late September 2000 Senator McCain chaired hearings related to 
the first Federal Trade Commission report and asked leaders of the 
industry about the possibility of creating a universal rating system 
for media. Four years later we've seen no progress from the industry in 
this regard, and a continued reluctance to even engage in the debate. I 
believe that it's time to create the incentives for the industry to act 
to begin to develop a universal rating system and to improve the 
reliability of its ratings for all forms of media. I appreciate the 
important differences between interactive media and non-interactive 
media, and I still believe that it's possible to create a better system 
that will be easier for parents to use and provide more information 
about content that will help parents and kids make better media 
choices. It's time, and I join the call for industry to lead the charge 
in developing the next generation of media rating systems.
    In all of my work in this area, I've come to appreciate the 
critical need for more research to further understand and characterize 
media content and their positive and negative impacts on kids. 
Americans should realize that we lack a national research agenda on 
children and media and currently few incentives exist for the academic 
community to play a significant and much-needed role in this area. In 
this regard, I urge members of Congress to take up the Children and 
Media Research Advancement Act (S. 2447) and to ensure that research 
and high-quality evidence guide our discussions about children and 
media.
    Thank you very much again for the opportunity to testify today.
References
    1. Yokota F, Thompson KM. Violence in G-rated animated feature 
films. Journal of the American Medical Association 2000;283:2716-2720.
    2. Thompson KM, Yokota F. Depiction of alcohol, tobacco, and other 
substances in G-rated animated feature films. Pediatrics 
2001;107(6):1369-74.
    3. Thompson KM, Haninger K. Violence in E-rated video games. 
Journal of the American Medical Association 2001;286(5):591-598. See 
related letter at: Journal of the American Medical Association 
2001;286(16):1972.
    4. Haninger K, Thompson, KM. Content and Ratings of Teen-Rated 
Video Games. Journal of the American Medical Association 
2004;291(7):856-865.
    5. Haninger K, Ryan MS, Thompson KM. Violence in Teen-Rated Video 
Games. Medscape General Medicine 2004(March 11);6(1). (Available at: 
http://www.medscape.com/viewarticle/468087).
    6. Thompson KM, Yokota F. ``Violence, sex, and profanity in films: 
Correlation of movie ratings and content.'' Medscape General Medicine 
2004(July 13):6(3). (Available at: http://www.medscape.com/viewarticle/
480900).

    Senator Brownback. Thank you, and thank you for the plug 
for CAMRA legislation. I am an original co-sponsor of that and 
I have been pushing it and seeking more research-based 
information for us to guide this, because these things are 
forming our children, these entertainment products are, and we 
really need to know what is in them and what it is doing to our 
children's minds as they develop. Thanks for that plug.
    Finally, let us get to Ms. Patty Miller, Director of the 
Children and Media Program from Children Now. Thanks for 
joining us.

   STATEMENT OF PATTI MILLER, DIRECTOR, CHILDREN & THE MEDIA 
                     PROGRAM, CHILDREN NOW

    Ms. Miller. Thanks. Children Now would like to thank the 
Senate Commerce Committee for holding this hearing on media 
ratings. It is a very important topic, especially given the 
fact that the average American child is spending almost 6 hours 
a day with media and in fact children spend more time with 
media than they spend doing anything else except for sleeping.
    There is no question that parents are extremely concerned 
about the content to which their children are exposed across 
entertainment media, especially on television. According to a 
new Kaiser Family Foundation poll released last week, six in 
ten parents are very concerned that their children are being 
exposed to too much sexual content on television, 53 percent 
are concerned about violent content, and 49 percent are 
concerned about adult language.
    I have been asked to comment today on whether the existing 
media ratings systems are effective in helping consumers 
discern what is appropriate entertainment for their children. 
But before advocates can answer that question, we must first 
understand the answers to several other important questions. 
One, are parents currently using the ratings systems? Two, can 
parents depend on the accuracy of the ratings? And three, has 
the media industry done enough to support ratings systems?
    Start with one: Are parents currently using the ratings 
systems? According to the Kaiser Family Foundation poll, about 
three-fourths of parents say they have used the movie ratings, 
about half say they have used the music advisories and video 
game ratings. When it comes to TV, about half of parents say 
they have used the TV ratings, one in four say they use them 
pretty often. Unfortunately, many parents still have not heard 
of the TV ratings and in fact one out of five say they have 
never heard about them. Many parents still also do not 
recognize the content-based TV ratings.
    Two, can parents depend on the accuracy of the ratings 
systems? Sadly, the answer is no. A large number of parents, 
four out of ten, say that ratings do not accurately reflect the 
content of shows, and research confirms their concerns. 
According to another Kaiser Family Foundation study, content 
labels were only applied to one out of five programs with 
violence, sexual material, or adult language. A National 
Institute on Media and the Family study found that parents 
often disagree with the TV ratings that were assigned to shows 
for particular age groups.
    When it comes to movie and video game ratings, there are 
serious issues as well. Dr. Thompson has already talked about 
the ratings creep issue when it comes to movies, so I will not 
talk about that here. But a Children Now study found that more 
than three-fourths of video games rated ``E'' for ``everyone'' 
contained violent content, half of which was significant to the 
plot.
    With these kinds of statistics, how can we honestly tell 
parents that they can rely on the various ratings systems to 
make informed choices for their children?
    Finally, three: Has the media industry done enough to 
support the ratings systems? Again, the answer is no. In order 
for media ratings to work, the media industry needs to provide 
accurate content information to parents. Children Now believes 
that the following recommendations should be implemented to 
ensure that existing media ratings systems are effective:
    First, provide parents with more descriptive and accurate 
content-based information. Each media ratings system should 
provide content-based information. Some parents are more 
concerned about violence, others are more concerned about 
sexual situations or suggestive dialogue. Content-based ratings 
are essential as they enable parents to make decisions based 
upon their own values and their own preferences.
    Further, while the age-based ratings seem to be more 
recognizable to parents at this point, those who have used the 
ratings are twice as likely to say that content ratings provide 
more useful information than age-based ratings. I think it is 
interesting with the ESRB ratings, which I think provide the 
most content information, that parents find those most useful, 
according to the Kaiser poll.
    Second, we need to increase parental awareness about the TV 
ratings. Currently the TV ratings are displayed for about the 
first 15 seconds of a show; instead, broadcasters should 
display them throughout the course of a show or, at the very 
least, as some shows are doing now, after each commercial 
break. Broadcasters also should provide parents with more 
information about the TV ratings through broad public education 
campaigns that could include more PSAs and making ratings 
information available I local newspapers.
    Third, use digital technology to provide more information 
to parents. Broadcasters should take advantage of emerging 
click-through interactive technology to provide on-demand 
ratings information to parents. How great would it be if 
parents could click on the TV rating on the screen to find out 
what it means, as well as get more detailed information about 
why it received that particular rating?
    Children Now believes that by adopting these 
recommendations the media industry would take a major step in 
ensuring that parents have the tools they need to make informed 
choices about their children's media consumption and it would 
decrease the need for regulatory action. Media ratings systems 
can only be truly effective when parents know they are 
available, parents know how to use them, and when they provide 
accurate and descriptive content-based information.
    Thank you.
    [The prepared statement of Ms. Miller follows:]

  Prepared Statement of Patti Miller, Director, Children & The Media 
                         Program, Children Now
    Children Now would like to thank the Senate Commerce Committee for 
holding this hearing today on media ratings. It is a very important 
topic, especially given the fact that the average American child spends 
almost six hours a day with media.\1\ In fact, children spend more time 
with media than they spend doing anything else, except for sleeping.
---------------------------------------------------------------------------
    \1\ Kaiser Family Foundation, Kids and Media @ the New Millennium, 
Kaiser Family Foundation, 1999.
---------------------------------------------------------------------------
    There is no question that parents are very concerned about the 
content to which their children are exposed across entertainment media, 
especially on television. According to a new Kaiser Family Foundation 
national poll of parents released last week, six in ten parents say 
they are very concerned that their children are being exposed to too 
much sexual content in the TV shows they watch; 53% are very concerned 
about violent content and 49% are concerned about adult language.\2\
---------------------------------------------------------------------------
    \2\ Kaiser Family Foundation, Parents, Media and Public Policy: A 
Kaiser Family Foundation Survey, September, 2004.
---------------------------------------------------------------------------
    I've been asked to comment today on whether the existing media 
ratings systems for the television, video game and motion picture 
industries are effective in helping consumers discern what is 
appropriate entertainment for children. But before advocates answer 
that question, we must first understand the answers to several 
important questions:

  (1)  Are parents currently using the ratings systems?
  (2)  Can parents depend on the accuracy of the ratings systems?
  (3)  Has the media industry done enough to support ratings systems?
(1)Are parents currently using the ratings systems?
    According to the recent Kaiser Family Foundation poll, about three 
fourths of parents say they have used the movie ratings, while about 
half of parents say they have used the music advisories and video game 
ratings.\3\ When it comes to television, half of parents also say they 
have used the ratings, one in four of whom say they use them often.\4\ 
Unfortunately, many parents still are not familiar with the TV ratings; 
one in five say that they have never even heard of them.\5\ And many 
parents don't recognize the content-based TV ratings, with only half 
able to identify the ``V'' rating and fewer able to identify the ``L'' 
and ``S'' ratings.\6\
---------------------------------------------------------------------------
    \3\ Ibid.
    \4\ Ibid.
    \5\ Ibid.
    \6\ Ibid.
---------------------------------------------------------------------------
(2) Can parents depend on the accuracy of the ratings systems?
    Sadly, the answer is no. A large number of parents (four out of 
ten) say that ratings do not accurately reflect the content of the 
shows \7\; research confirms their concerns. According to a 1998 Kaiser 
Family Foundation study, content labels were only applied to one out of 
five television programs with violence, sexual material or adult 
language.\8\ Further, a National Institute on Media and the Family 
study found that parents often disagreed with the TV ratings that were 
assigned to shows for particular age groups. For example, only about 
one fourth of shows with a TV-PG rating were approved by parents for 8-
to12-year-olds and only about one in ten shows with a TV-14 rating were 
acceptable to parents for 13-to 17-year olds.\9\
---------------------------------------------------------------------------
    \7\ Ibid.
    \8\ Kaiser Family Foundation, Rating Sex and Violence in the Media: 
Media Ratings and Proposals for Reform, November, 2002.
    \9\ National Institute for Media and the Family, Parents Rate the 
TV Ratings, May 1998.
---------------------------------------------------------------------------
    When it comes to movie ratings, there are serious accuracy issues 
as well. According to a recent Harvard University School of Public 
Health study, there has been a significant increase in violence, sex 
and profanity in films over the last ten years, suggesting that the 
age-based movie ratings (specifically PG, PG-13 and R) are increasingly 
lenient.\10\ And video games ratings raise concerns as well. A Children 
Now study found that more than \3/4\ of games rated ``E'' for everyone 
(79%), contained violent content, half of which was significant to the 
plot.\11\ With these kinds of statistics, how can we honestly tell 
parents that they can rely on the various ratings systems to make 
informed choices about their children's media consumption?
---------------------------------------------------------------------------
    \10\ Brooks Boliek, ``Researchers Cite Ratings Creep,'' The 
Hollywood Reporter, July 14, 2004.
    \11\ Children Now, Fair Play: Violence, Race and Gender in Video 
Games, December 2001.
---------------------------------------------------------------------------
(3) Has the media industry done enough to support the ratings systems?
    Again, the answer is no. In order for media ratings to work for 
parents, the media industry needs to provide accurate and descriptive 
content information to parents. Children Now believes that the 
following recommendations should be implemented to ensure that existing 
media ratings systems are effective in helping parents:

  (a)  Provide parents with more descriptive and accurate content-based 
        information.--Each media ratings system should provide parents 
        with content-based information. Some parents are very concerned 
        about violence; others are more concerned about sexual 
        situations or suggestive dialogue. Children Now believes that 
        content-based ratings are essential as they enable parents to 
        make decisions about what their children see based upon the 
        parents' own values and preferences. Further, while the age-
        based ratings seem to be more recognizable to parents, those 
        who have used ratings are twice as likely to say that content-
        based ratings offer more useful information than age-based 
        ones.\12\
---------------------------------------------------------------------------
    \12\ Kaiser Family Foundation, Parents, Media and Public Policy: A 
Kaiser Family Foundation Survey, September 2004.

  (b)  Increase parental awareness about the TV ratings--Currently, the 
        TV ratings are displayed for the first 15 seconds of a show. 
        Instead, broadcasters should display the ratings throughout the 
        course of a show, or at the very least, as some shows are 
        doing, after each commercial break. Broadcasters also should 
        provide parents with more information about the TV ratings 
        through broad public education campaigns that could include 
        public service announcements and making ratings information 
---------------------------------------------------------------------------
        available in local newspapers.

  (c)  Use digital technology to provide more information to parents.--
        As television transitions from analog to digital, Children Now 
        believes that broadcasters should take advantage of emerging 
        click-through, interactive technology to provide on-demand 
        ratings information to parents. Parents should be able to click 
        on a TV rating on the screen to find out what it means as well 
        as more detailed information about why it received that 
        particular rating.

    Children Now believes that by adopting these recommendations, the 
media industry would take a major step in ensuring that parents have 
the tools that they need to make informed choices about their 
children's media consumption and decrease the need for regulatory 
action. Media ratings systems can only be truly effective when parents 
know they are available, know how to use them, and when they provide 
accurate and descriptive content-based information.

    Senator Brownback. Thank you, Ms. Miller.
    Senator Smith, did you have an opening statement you wanted 
to make?

              STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Mr. Chairman, let me put it in the record, 
but simply to welcome our guests. This is a very important 
topic and I think I am here in part to learn, but also to 
suggest that I think Jack Valenti's pioneering on this long ago 
brings us to the stage where we can actually talk about doing 
this without government involvement, but as responsible people 
trying to give parents the tools. I am frankly here to find out 
how the Secretary of Agriculture feels about nutrition labeling 
for kids when it comes to media. So, there are lots of good 
ideas here.
    Mr. Glickman. Former Secretary of Agriculture.
    Senator Smith. Former, absolutely.
    But I think that that has been referenced, some sort of 
labeling that provides us the information we need to protect 
our kids, but also to live under the freedoms provided under 
the First Amendment. So that is really the balance we are 
striking.
    And I salute Jack as he leaves his service to this industry 
for the pioneering work that his industry did. Obviously, as 
new technology and new media outreach is available to kids, we 
are looking to see where we go from here and what we can yet 
do.
    So thank you, Mr. Chairman.
    Senator Brownback. Thank you, Senator Smith.
    Senator Ensign, do you have an opening statement you would 
like to make?

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. Mr. Chairman, I would appreciate it. I will 
try to keep it fairly brief.
    The ratings systems to me, whether they are on video games, 
movies, television, wherever they seem to be applied, would 
basically be information. That is what we are trying to give 
people, information to make informed choices, and to try to be 
as responsible as we can about that. Obviously, if we make them 
too cumbersome they will become ineffective. So I can 
appreciate wanting to limit the amounts of information 
somewhat, but also providing out there enough information, 
especially where we know when there is content in movies, 
television, video games, or whatever, that we have pretty good 
scientific evidence that leads to unhealthy behaviors, 
behaviors that are not good for society, behaviors that are not 
good for the individual, then I think that as individuals, as 
industries, I think we owe that to the American people to help 
them make those types of decisions, and especially to parents 
when they are involving making decisions for their children.
    As a father of three, we look at, OK, what is going to be 
healthy for my kids, what are the kinds of entertainment that 
we are going to allow our children that are going to make them 
better people, that will not actually make them have worse 
behavior. We all know by the studies certain kids are 
influenced much more than other children based on what they 
watch, what they hear, those types of things, whether it is 
music or whatever it is.
    I happened to be one of those kids when I was growing up 
that was greatly influenced, I mean tremendously influenced, by 
some of the things that I saw on television. I know that there 
are a lot of kids like me when I was a kid. So I think we have 
a tremendous responsibility out there, much greater than any of 
us realize, to have--to put in the right content, because if we 
have bad content going out we know we are going to end up with 
bad types of behavior.
    Just as an illustration--and Jack, you and I, we have 
talked many times about this and now that we have somebody 
taking your place here, Mr. Glickman--we have had several 
hearings in the last--we had one hearing plus a meeting out in 
California. It has to deal with smoking in movies. I know that 
there is the idea of profanity, violence, all of the other 
types of things, but I am just using this as an example: that I 
have always felt for a long time that what we see affects 
behavior. I do not think that there is any question about it, 
and for people that argued against it, people would not pay $2 
million for a 30-second ad in the Super Bowl if they did not 
think that what you watched affected your behavior. I mean, I 
think that is pretty obvious.
    So how do we do this in a responsible way? Well, in smoking 
we know now, pretty good evidence--and I have been through it 
now and seen the studies, and I think it is maybe not 
causative, but it is a pretty strong a correlation of 
evidence--that the more kids watch smoking and the more 
incidents of smoking that they watch, whether they are in 
smoking households or non-smoking households, the more kids are 
going to start smoking. I mean, there is pretty good evidence 
for that now.
    I understand that people want to have creative freedom. I 
totally understand the First Amendment. I have never called for 
censorship up here, for banning smoking in movies, for R-
ratings, or any of that. But it would seem to me that if you 
put that as one of the labeling factors--Jack, you have said 
that you tried to only you do not want to start regulating 
legal behaviors.
    Well, you know, profanity is not illegal, but yet profanity 
is one of those things you take into account in the ratings 
systems. Well, smoking actually kills people. Long-term smoking 
actually kills people, and we know that if kids start smoking 
when they get older--if we stop them from smoking by the time 
they are 21, the chances of them ever starting smoking are 
virtually nil.
    You know, we hear about the Tobacco-Free Kids campaign, 
regulating nicotine, all that kind of thing, and yet the 
biggest influence is what these kids are seeing. So it would 
just seem to me that we really need to consider this. By 
putting in the ratings, it would seem that we are going to 
raise a lot more awareness among the actors, the directors, the 
producers, to ask the question: Do I really need to put this 
smoking scene in?
    It is the same thing we have done with violence and things 
like that. It at least makes people aware. It allows parents to 
make those choices on things like that.
    So I would encourage, Dan, as you take on this 
responsibility, take a real hard look at this. You have some 
really good people in Hollywood that feel similarly as I do and 
I would encourage you to work with them and encourage them to 
have much more responsible movies, but also in the ratings 
systems take a look at doing something like this.
    Thanks.
    Senator Brownback. Thank you.
    We will run the question clock at 7 minutes. I am going to 
start off with Dr. Thompson and then, Mr. Podesta, I want to 
direct this to you, too. I want to ask you a question as a 
parent, not as a Senator but as a parent. I have got four 
children at home, televisions in the house, several 
televisions, not in any kid's room. I have watched the studies. 
The pediatricians are saying kids should not watch television 
under the age of two at all. I absolutely agree with that.
    If I had a perfect world in my home and I was a perfect 
dad, which I am not--I wish I were, but I am not--we would be 
able to in our own home limit what comes into that in the 
television and the Internet, in particular--I do not see it as 
pervasive on the radio--sexual material, violent material, 
language material; we could as a consumer keep that out of our 
home. We would know ahead of time it was headed this way on 
this show, or when the scene comes up we could program the 
television that it does not show this type of scene.
    Are those sorts of things possible for us to do today? And 
in your studies, what did you find the optimal conditions that 
a parent wanted in their own home to control the entertainment 
product coming into their home? Dr. Thompson, why don't we 
start with you.
    Dr. Thompson. I will start. Actually I have not done 
studies that survey parents. I have never asked that question 
to parents and so I cannot answer. That is just a research 
study I have not done.
    I think the strategy that I always take is that media teach 
and kids learn, and so the reality is that parents need to be 
ready to talk to their kids about what they see and to help 
make good choices with and for their kids. Basically, with V-
Chip technology my understanding is that you can, you can 
actually set your television to allow or not allow any kind of 
programming that you would like or not like your children to 
view, but you need to invest the effort in understanding the 
system and programming your television to do that.
    Senator Brownback. But now is that actually the case? 
Because, Mr. Podesta, if it is ranked ``V'' all I can do is 
blank the whole show out. Why could we not program that 
entertainment product for when the violent scene comes up that 
that is when it goes out, so that we are not blanking the whole 
show?
    Dr. Thompson. I will take a stab at that one, which is that 
that would imply rating every second of the program or every 
subset of whatever time unit you would want to do. Now, 
ironically enough, we do that in our studies. We have actually 
quantified every second of movies to figure out how much 
violence is in them, and it can be done.
    I think the question is is that the information the parents 
want, and we have not asked that question, so I cannot answer 
it.
    Senator Brownback. Ms. Miller, have you asked that question 
of parents?
    Ms. Miller. We have not actually asked that question of 
parents, to find out that, if in fact they could actually 
cancel out scenes, would they want to do that as opposed to the 
entire show. So we do not know the answer to that.
    Senator Brownback. Could you inquire of them? Because it 
seems like, with us going to digital, all-digital entertainment 
product, you could program this into the entertainment product. 
And with the convergence that you are talking about, Dr. 
Thompson, which is on us now, of video games being piped into 
the home, of the movies being piped into the home, of 
television entertainment products being piped in, you are going 
to have a whole series of confluence going right into the home, 
which is the most invasive place.
    This is where people generally want us to help them the 
most because they do not like callers coming into their home, 
they do not want unwanted things coming up on their Internet. I 
think on their television they would like to have a better 
system of control. So it is a consumer choice issue. It is not 
a regulatory issue; it is a consumer choice issue.
    Mr. Podesta?
    Mr. Podesta. Mr. Chairman, I am not an engineer, but there 
were extensive discussions in a proceeding at the FCC on how to 
implement the V-Chip and it was determined by a group of 
engineers in consultation with the FCC and the FCC adopted the 
standard, that it was difficult to block out short programming. 
So the way the system works and the way the TV sets have been 
manufactured I believe is only to operate with a signal at the 
front end of the program which blocks off, which blocks off the 
whole program.
    I suppose that engineers smarter than I could develop a 
different system, but that is the system that the FCC chose.
    Senator Brownback. Mr. Kinney, you seem to be working at 
the front edge of this type of situation, where the consumer 
drives the issue and drives the choice. You talk in your 
testimony like that is something that is doable with your 
system right now.
    Mr. Kinney. Senator, actually yes, that is exactly how our 
system works. We do record every single instance of profanity, 
sex, and violence. We break it down contextually, and we do 
that to the one-hundredth of a second for every single thing 
that we rate. The technology does exist to do that.
    In fact, the reminds me, I was asked at one point, do you 
not fear competition from a company like Clear Play. And my 
response was: Only if consumers want to watch the 7-minute 
version of ``The Passion of the Christ.'' Rather than that, 
what it could do is and what I was suggesting earlier is that 
the technology could enable the entertainment industry itself 
to substitute various levels of profanity, sex, and violence if 
they chose, so that they could generate different versions of 
their content, which I thought, perhaps naively, but that I 
thought would then open up additional channels of distribution 
for them.
    So in fact yes, it can be done.
    Senator Brownback. It could be like food products, where 
they have a basic version, then they have a lite version to it, 
and people get to choose which one they would like.
    Mr. Kinney. That is how I envision it, sure. And that is 
what I was suggesting I would like to work in cooperation with 
the industry to help them do that.
    Senator Brownback. Can the industry, Mr. Kinney--I would be 
open to others to answer this--can the industry itself actually 
set the ratings? Here I wonder if there is an inherent conflict 
of interest. Mr. Valenti, you may want to jump in on this.
    Mr. Valenti. I will after Mr. Kinney.
    Senator Brownback. Sex and violence sells. We use it to 
sell toothpaste. The connection between sex and violence and 
toothpaste is tenuous at best, I think, but we use it to sell 
every form of product virtually. And here is an industry that 
has a fiduciary duty to shareholders to maximize profits, and 
is there not this huge conflict for the industry to rate 
something and at the same time need to use this to be able to 
sell a product where they have a fiduciary duty to shareholders 
to manage their assets and make as much income as they can?
    Can the industry actually rate these products fairly?
    Mr. Kinney. Mr. Chairman, my position all along has been 
that the entertainment industry has a primary responsibility to 
their shareholders and perhaps secondarily to their customers, 
the consumer that watches the movies. Certainly sex and 
violence sells, so that is why our position has always been 
that we take an approach that objectively says what is in it as 
opposed to saying, this should not be allowed to be produced.
    I believe that the entertainment industry--yes, sex and 
violence do sell, so for that reason--I mean, I am not one to 
say that the industry should not produce sex and violence. What 
I do believe is that they have to balance, as I always say, the 
freedom of expression with freedom of information. As long as a 
parent or any other consumer knows what they are purchasing 
before they are exposed to it or they expose their child to it, 
it is the parent's responsibility to determine what is 
appropriate for the children.
    As to whether or not the industry can self-regulate itself, 
I think the MPAA system has been around, as has been said, for 
36 years. It is fairly useful. As Dr. Thompson pointed out, 
though, if you ask me if something is useful and you do not 
give me an alternative, then of course I am going to say it is 
useful.
    So I just think that the industry systems need to be 
supplemented with the content information that parents and all 
consumers need to make informed decisions. And I do not think 
that that defeats the purpose of the entertainment industry to 
make profits for its shareholders.
    Mr. Valenti. Mr. Chairman, let me try to give you some 
facts, and not dealing with anecdotal information. Mr. Kinney 
says that sex and violence sells. I should present to him a 
list of the highest grossing pictures of the last 2 years. 
Number one is ``Finding Nemo.'' Unless you find a lot of sex 
and violence there, I do not know.
    Sex and violence does not necessarily sell. Every movie is 
different. It is not like a can of Campbell's soup that they 
run one million cans off of an assembly line. Every movie is 
different. You are not dealing here with Euclidean geometry. 
Every one of these systems that you are talking about is 
subjective. When you have any kind of a variance of violence, 
what is too much violence? The Supreme Court to this very hour, 
Mr. Chairman, is unable to define pornography or obscenity. So 
this is something that is quite subjective.
    So let me just give you about three or four points. Point 
number one is that research and reasons--8 years ago the motion 
picture rating system--well, first let me tell you that when we 
started it I realized there would be pressure brought by 
producers and the big moguls that run the studios. I got the 
Motion Picture Association directors to sign a resolution that 
they would abide by the rules of the ratings system and they 
would submit every one of their pictures and that the only two 
people in the industry who would make policy for the motion 
picture ratings would be the president of the National 
Association of Theater Owners and the president of the Motion 
Picture Association of America.
    The biggest claimants to disharmony about the ratings 
system come from the studios and from independent producers. 
But in order to get to the rating board they have got to go 
over me and John Fithian, the president of the National 
Association of Theater Owners. Not once has that ever happened. 
Even the most fierce critic in Hollywood of the ratings 
system--and most of the critics do come from the creative 
community--never once have challenged the integrity of the 
system.
    Do we make mistakes in ratings? Of course we do, because we 
are normal people and in a subjective environment you are going 
to make mistakes.
    When I first started the ratings system, I hired a number 
of social scientists and so-called child behavioral experts and 
I said: Show me the demarcation lines that we can deal with 
this. But, like the Supreme Court, they got bogged down and it 
all came out to subjectivity.
    Eight years ago we started giving ratings for every movie, 
ratings, information ratings, and we sent them to every movie 
critic, every newspaper critic, every television critic in the 
country. 5-1/2 years ago, we have now put them in every ad in 
the newspapers that are over--I do not know the size of it; I 
think it is a fourth of a page or more--you will see the legend 
on every film. If it has submitted for a rating, it has the 
reasons for the rating.
    You can go to filmratings.com and find the ratings of 
18,000 films, and of those that had the reasons you can find 
them there. You can go to parentalguidance.org. Every movie 
studio has its own site where it shows you the movies that it 
has and they are rated. So the reasons for ratings are there.
    Two more points and then I will--let us talk about ratings 
creep.
    Senator Brownback. Mr. Valenti, I want to get to it, but I 
am way past my time. If you can stay on this question, if you 
do not mind.
    Mr. Valenti. Yes, sir, I will.
    Senator Brownback. And if there is anything else, I want to 
go to my next colleague on this.
    Mr. Glickman?
    Mr. Glickman. I just, I wanted to say two things. Number 
one, to Senator Ensign: I spoke yesterday to the National 
Association of Attorneys General. They had their annual 
meeting, and this issue came up and I told them I would 
continue to work with them on that. In truth, the directors and 
a lot of the creative community do in fact recognize the need 
to significantly reduce smoking in the presentation of movies 
and it is something we are going to continue to work on.
    The other thing I would point out, the House just passed, 
just within the last few minutes, H.R. 4077, which has two 
pieces to it. One is that it makes it a Federal crime to engage 
in camcording movies illegally, in order to protect the 
copyright.
    The other part of it is the Family Movie Act, which deals 
with a piece of litigation that we were involved with involving 
Clear Play. Without going into great detail on that, Senator 
Hatch and others have been involved in that on this side of the 
aisle. Clear Play may address some of the issues that you are 
talking about, Senator Brownback. We still worry about 
copyright considerations with that in the replicating, those 
issues, and reproducing a modified movie.
    But there are a variety of ways that one might look at 
these issues. I just thought I would mention it since it passed 
the House today.
    Senator Brownback. Senator Ensign.
    Senator Ensign. Thank you, Mr. Chairman.
    I want to follow up just a little bit, because I have heard 
from directors and producers and creative people talk about 
that they do not like somebody messing with their content. I 
can appreciate that. What I do not understand, because I think 
of what Mr. Kinney talked about, about maybe expanding their 
markets because--if you could have modified versions of a 
film--I mean, you already have modified versions of film. You 
have on the airlines--I fly on the airlines every week.
    Why is it OK to have a modified version for the airline? 
Why is that OK for the directors to have that, but if parents 
wanted, say, whatever you call it, an airline version of the 
movie--because there is a lot of movies that I would love to be 
able to share with my children, but they have just a few scenes 
that make it unacceptable, but they are awesome movies as far 
as the moral message in the movie and just the inspirational 
part of the movie, and you would love to let your kids watch 
that. But you have got to watch it with them and you have got 
to fast-forward, so you almost have to do your own editing 
anyway if you are going to do that, and sometimes you do not 
quite get it just right and it is a royal pain. It would seem 
to me that that would be a market that would be there.
    Then second, a follow-up to that, that I would love some 
comments on is, we have unrated versions of movies, too. You go 
into a video store, you see that, and it says: Buy the unrated 
version. So it seems to me that there are already several 
versions. Why would not a family friendly version be 
acceptable? If you can go the other direction, why would you 
not also want a family friendly?
    Mr. Glickman, on your--or I guess, Jack, it was you, when 
you talk about quarter-page ads. The problem is you cannot 
read. Those things are such in small print now, the ratings, 
like why it is there. Unless you get a magnifying glass out, 
you cannot, even with reading glasses. Some of the print now is 
so small, when you go to buy a video or a DVD or whatever it 
is, you go to buy it, on there some of the print is--that is 
just a comment to the industry in general: Make the thing a 
little larger so you can read it, so it makes a little sense. 
If you are going to have why it has a certain rating, make it a 
little larger where people can read it. Some are good and then 
some are just you cannot read it at all.
    Mr. Valenti. Let me answer about the airline version. The 
airline versions are edited by the director. The industry 
offered to Clear Play to give them the airline versions, which 
would be edited by the directors, taking out severe acts of 
violence, all language, and all overt sexual material. But 
Clear Play did not want to do that and we could not come to 
grips with it. But the airline version was offered as a way to 
do what you are suggesting, Senator Ensign. But as I said, in 
the negotiations it fell apart because Clear Play did not want 
to do that.
    Senator Ensign. Well, I would suggest that there should 
be--if there is anybody out there in America listening to this, 
they ought to put together a company that would do it, if that 
is the only way you can get it done, because I personally think 
that there would be a fairly large market of parents out there 
that would like to see that. So hopefully we can get that done.
    Mr. Valenti. About unrated films, Senator, I should tell 
you that the very premise of the rating system is based on 
voluntarism. The strength of our force in the courts--we have 
been sued a lot of times by people for various reasons. We have 
always won because there is no compulsion. If you do not wish 
to submit your film for a rating, you do not have to. No one is 
compelled to do anything.
    But I would say that about 98 percent of the films that 
enter the theatrical marketplace and the home video marketplace 
are rated.
    Mr. Kinney. May I mention something?
    Senator Ensign. Yes.
    Mr. Kinney. Senator Ensign, with regard to if there were a 
company out there that did that, we do not take copyrighted 
material and alter it and then present it. We do provide 
exactly all of the information that would enable a parent to 
know exactly what the profanity, sex, and violence is at any 
given moment in a film. So the families do have somewhat of a 
resource to come to.
    Then with regard to--I just want to clarify a couple 
things. I did not say that the entertainment industry is set up 
to sell sex and violence. I simply agreed that in fact, as 
anybody knows, sex and violence do sell, especially in this 
country.
    Finally, with regard to subjective versus objective, I have 
made the claim and I will stand here today or sit here today 
and say that the PSVratings system is objective. We are not a 
bunch of parents that live in Los Angeles who make a 
determination as to what the rest of America would think. We 
simply put together the information and present it objectively.
    Even with regard to the colors that we use, they are just 
an indication of various levels. The fact of the matter is--and 
personally I do not agree with it--there are parents out there 
who think it is cute if their little 3-year-old uses the ``f'' 
word. I do not think so, but those parents are free to look at 
a movie that is rated red for profanity. So we do not make 
judgments. We are not a subjective system. We objectively give 
you exactly the information that is in the media.
    Senator Ensign. Ms. Vance, if you could just comment on 
your organization's decision, how you came to a decision about 
tobacco, why you put it in, and some of maybe the violence in 
some of your ratings systems, why you decided to do that?
    Ms. Vance. Earlier in my testimony we went through the 
system itself. We have over 30 content descriptors currently in 
use. We did not always have 30. We have introduced a number of 
descriptors over time.
    We have introduced controlled substances probably 3 or 4 
years ago, broken down into drugs, tobacco, and alcohol. We 
actually fairly recently in the system introduced or 
differentiated the way that we apply those descriptors between 
use of and reference to.
    We introduced four more descriptors last year in the area 
of violence, because clearly that is an area of great concern 
to many parents and we wanted to make sure that we had enough 
nuance in the descriptors that we were using to distinguish 
between cartoon violence or fantasy violence and more intense 
forms. So we now have descriptors suitable for that.
    Can I just address one comment? Objectivity in a ratings 
system is very dangerous. Context has to be taken into account. 
In fact, in the study that was done at Harvard there was some 
differences of opinion in terms of where we would apply content 
descriptors. There were instances where, say, a character was 
holding an unlit pipe. Well, that would not qualify, 
particularly in a teen game, for a tobacco descriptor. Or 
unmarked bottles sitting on a table; you can make an assumption 
that they are alcohol. Nobody is using them.
    So objectivity is a very dangerous thing. Subjectivity has 
to come into account, because these are creative products and a 
depiction can vary. The way you depict something can vary all 
the way from an ``E'' through ``M.''
    Senator Ensign. I think that there is no question that a 
lot of this is subjective. What is OK for one parent is not 
OK--I mean, I look at certain movies, take violence for 
instance or smoking. Depending--smoking if it is made to look 
cool by the lead actor versus if it is somebody who is smoking 
and hacking and getting lung cancer, one thing could be a 
positive negative influence on children, so that could be a 
good smoking in a movie, where another one could be a very 
negative influence for the kids because it is encouraging them.
    The same thing with violence. There is gratuitous violence. 
There is historical. Certainly ``Saving Private Ryan,'' which 
was an incredible movie, was very violent. ``The Passion of the 
Christ,'' very violent. But they were historically accurate.
    And the same thing even sometimes with smoking in movies. 
We talked about this with some of the directors. You know, 
Franklin Delano Roosevelt, he had the big long cigarette. That 
is historically accurate. To not have that--I am just saying 
that sometimes--that I agree with you; it is just more 
information.
    Also, the reason, Mr. Chairman, I am so glad you are--more 
of these hearings are important, and we keep talking about 
this. It is simply to draw attention to what kind of a society 
are we going to have. The video game manufacturers I think have 
done a superb job in going from what I believe was a very 
irresponsible industry in the early stages--and there are still 
some irresponsible actors in it. But several of the companies 
now are becoming more and more responsible, giving parents 
more. The retailers in cooperation, we can have more 
responsibility there. The same thing with the movies and the 
theater owners, and keeping--if it says ``NC-17,'' that means 
``NC-17.''
    There is a lot of responsibility. If we can bring it more 
to public knowledge, awareness, corporate responsibility, 
parent responsibility, all of it working together, I think we 
can have a healthier society. And I think in the end that is 
what we should be looking at.
    Thanks, Mr. Chairman.
    Senator Brownback. Thank you.
    Mr. Podesta, on the TV ratings, I think this is backed by 
the Kaiser study. Of all the ratings involved, and I have been 
around this for several years, I think these are the least 
understandable. I really have--my favorite is the ``FV'' one of 
all on the TV ratings, because I look at that and I immediately 
think ``family viewing'' instead of ``fantasy violence'' on it.
    I just, I look at the set of them and I really think these 
are the least useful of the entire groupings. I do not know if 
you guys are going in toward revamping or if you have looked at 
some of these studies that have been coming out recently about 
television ratings systems. That is in the environment that is 
the most invasive, in the home. You go to a movie and you pick 
it out, so you have made some conscious choice. A lot of times, 
television things, you are just roaming through the channels.
    Are you looking at revamping some of this or do you believe 
the system is pretty acceptable?
    Mr. Podesta. Mr. Chairman, the system has been approved by 
the FCC and the FCC standard has hard-wired the system into 
millions of television sets that have been produced. I think it 
is also important to look at the Kaiser data on whether parents 
who use the system find it to be useful or not useful. Indeed, 
88 percent of the parents who use the system--and slightly more 
than half do--have found it either to be very or somewhat 
useful.
    So we have a job to do in terms of acquainting people with 
the system and we take that responsibility seriously.
    If I may, I would also like to just speak to the point 
about whether or not the shows are misrated. We have a very 
open process. Any parent, any advocacy organization, any 
researcher who finds anything that is misrated in our system 
has immediate recourse. We have regular meetings at which child 
advocacy organizations like Children Now sit with people from 
the producers and directors guilds, people who actually rate 
the shows on television, and we have very open conversations 
about standards and the like.
    We are a very young system compared to the motion picture 
ratings system. I could not say to you that no one has ever 
made a mistake, but I think we have strictly adhered to the 
standards that have been set by the voluntary effort of the 
industry and thousands of hours of television programming are 
accurately rated.
    Is it a perfect system, Senator? I think, as with any 
system that a group of people devise, it is probably not--
probably no one of us thought it was perfect, but I think it 
has a very useful purpose for American parents.
    Senator Brownback. Mr. Podesta, the Kaiser Family study--I 
am quoting from Ms. Miller's testimony now--said: 
``Unfortunately, many parents are still not familiar with the 
TV ratings. One in five say they have never even heard of them. 
Half of the parents say that they use the ratings''--it would 
seem to me it ought to be much higher--``one in four of whom 
say they use them often.'' I think you are getting a much 
higher take on the movies, the ratings system, and a lot better 
understanding of those.
    Are you planning any programs to advise parents more at 
least, if we are stuck on this system, to tell them at least 
what these things stand for?
    Mr. Podesta. We work very hard. We produce literature. 
There is a brochure that is available to anyone. Any 
organization that wishes to can download it on the Internet and 
make it available at the local level. As I said, we work 
closely with the PTA. We have worked closely with medical 
organizations, pediatricians, to try to get this information 
out in the hands of parents.
    We have also spent millions of dollars--we have also 
provided millions of dollars of public service advertising to 
try to educate parents on the system. There are parents who are 
eager and anxious to use the system and inform themselves and 
there are other parents who may choose not to do so. But it is 
for no lack of effort on the part of the industry and no 
process that we have undertaken that has led to that ignorance.
    I would just also say that----
    Senator Brownback. But it is not working.
    Mr. Podesta.--the motion picture ratings have been here for 
nearly 40 years. We are only 6 or 7 years old and we aspire to 
get to 75 or 80 percent over a period of time.
    Senator Brownback. I do not think you are on the right 
track to make it yet.
    Here is another quote: ``Many parents do not recognize the 
content-based TV ratings. Only half are able to identify the 
`V' rating and few are able to identify the `L' or `S' 
rating.'' I wonder how many would appropriately interpret the 
``FV'' rating.
    Ms. Miller. I think the number is really low. I think it is 
something like 12 percent. I think again this really comes down 
to education of parents. In addition to one out of five parents 
not knowing the TV ratings, two-thirds either do not have a V-
Chip or are not aware if they have a V-Chip.
    In order for the system to work, it really requires much 
more public education than has been done. It is interesting; 
since January, all of a sudden there is a lot more talk about 
the V-Chip and TV ratings and education. I think that had a lot 
to do with----
    Senator Brownback. Superbowl.
    Ms. Miller.--Janet Jackson's wardrobe malfunction. You 
know, I am glad that that was an outcome of that event, but 
that is just not enough. I mean, if we really are going to ask 
parents----
    Senator Brownback. She needs to be invited back to the 
Superbowl, does she not?
    Ms. Miller. There needs to be a lot more ongoing public 
education that is done in a variety of ways--again, newspaper 
ratings, on-screen ratings that appear not just for the first 
15 seconds, public education actually at hours when parents are 
actually watching television, not in the middle of the night. 
There needs to be a concerted effort on the part of the 
industry to get this information into the hands of parents.
    Senator Brownback. Mr. Podesta, is this impossible to do, 
when a violent scene comes up to put and have it programmed 
such that there is up in the upper right-hand corner a light, 
white-colored ``V'' for ``violence'' showing when that scene is 
on the television and requiring that in the TV rating product 
when you are putting it up? Mr. Podesta? And then I will be 
happy to catch you then, Mr. Valenti.
    Mr. Podesta. The system as it has been adopted by the FCC 
blocks out the entire program, not a scene, as I think the 
Senator is suggesting.
    Senator Brownback. I understand, but could you program----
    Mr. Podesta: I fall back on my lack of engineering 
knowledge to know that. But the system that they adopted does 
not do that, and it may be possible, but I would be 
speculating, which I should not do.
    Senator Brownback. Would you mind inquiring in your group 
and then letting me know if that would be possible to do, just 
possible to do? And I realize the FCC has put this in place.
    Mr. Podesta. I am happy to do that, Senator. But just if I 
may point out that all of us in the content and broadcast and 
cable and production industry were largely bystanders in the 
FCC process that worked a lot with the manufacturers of 
hardware to set the standard. So no one is here representing 
the television set manufacturers, and some of the issues really 
are in that arena.
    Senator Brownback. Understood.
    Mr. Podesta. But I would be happy to supplement my 
testimony with an answer as well.
    [The information referred to follows:]

                                     TV Parental Guidelines
                                   Washington, DC, October 18, 2004
Hon. Sam Brownback,
Washington, DC.

Dear Senator Brownback,

    Thank you once again for inviting me to testify before the Commerce 
Subcommittee on Science, Technology, and Space on September 28, 2004, 
on the subject of media ratings systems.
    I appreciate having the opportunity to elaborate on my testimony in 
writing. During the hearing you asked me about the feasibility of 
modifying the television V-Chip or perhaps using an alternative means 
to block not just programs, but scenes within programs.
    In order to provide a complete and accurate answer to your 
question, we consulted a number of technical experts to determine if it 
is possible to block separate scenes for content or language.
    The V-Chip information packet (ratings packet) is part of a 
technology called Extended Data Service (XDS). The specification for 
XDS (and Closed Captions) is contained in a technical standard called 
EIA!CEA-608-8, published by the Consumer Electronics Association. XDS 
is data sent in the 'TV signal that conveys detailed, program-specific 
information as well as television network/station or cable network 
information. XDS information packets, using the closed captioning 
technology, are carried on a space available basis within that data 
stream. XDS packets are sent repeatedly during a program (different 
packets have different repetition rates) to allow the TV set to capture 
all the data associated with a program should a viewer join a program 
in progress.
    In order to block a specific scene or phrase, a ratings packet 
would need to arrive at a TV receiver at the exact moment the scene 
begins and then another packet would have to arrive at the exact moment 
that the scene ends to un-block the 'TV set. This would require what is 
called "frame level" accuracy. 1 Indeed, blocking a single word would 
likely require a ratings packet to be sent followed by another just one 
to two frames later.
    It is not possible to send ratings packets to the 'TV set with this 
level of precision. CEA standard tests revealed that the ratings packet 
typically arrives at a TV set approximately every 1.5 seconds. However, 
because closed captions have priority and XDS packets must wait for 
holes in the caption traffic, it can be as long as three seconds 
between packets. This repetition rate was deemed adequate at the time 
the V-Chip technology was developed based on the requirements for the 
nt ratings system, yet it is dearly inadequate for frame accurate 
blocking.
    For Digital Television (DTV), the Content Advisory Descriptor is 
the data structure that contains the rating for a particular program. 
The Advanced Television Systems Committee (ATSC) DTV standards specify 
that this descriptor be carried in the Program Map Table (PMT) or the 
Event Information Table (Em and apply to an entire program. There are 
no means in the ATSC standard by which the Content Advisory Descriptor 
could be applied to a segment of a program.
    The television industry created the lV ratings system, and consumer 
electronics manufacturers developed the V-Chip technology, following 
enactment of the Telecommunications Act of 1996. The ''Parental Choice 
in Television Programming" section of the Act (Section 551) contains 
carefully crafted statutory language that was adopted following intense 
negotiations involving a wide range of stakeholders.
    The statute specifically prescribes a method for blocking 
"programs." It makes no reference to rating or blocking programming on 
a scene-by-scene basis. The law calls for inclusion of a device in 
certain television sets to block "display of all programs with a common 
rating." The statute also includes a provision anticipating further 
technological advances, but even this section makes no mention of 
rating or blocking less than the entire program. The statute reflects 
the authors' understanding that programmers would identify and rate 
content on a program-by-program basis and that lV sets would contain 
technology to block on that same basis.
    I hope that you find this information useful. If you have any 
further questions on this subject, please feel free to contact me any 
time.
            Sincerely,
                                        Anthony T. Podesta,
                                             Executive Secretariat,
                                  Parental Guidelines Monitoring Board.

    Senator Brownback. Mr. Valenti.
    Mr. Valenti. Two facts, Mr. Chairman. One is, as to Janet 
Jackson, even if you used your V-Chip it would not work because 
Janet Jackson is in the Superbowl; sports are not rated.
    The second point is that when the manufacturers put in the 
FCC-mandated technical design it was impossible to change. They 
told us that. So if you tried to change what is in the V-Chip 
mechanism today, you could not do it except by having a new 
design, and you would obsolete the V-Chip in 125 million sets 
that are now in place.
    Senator Brownback. That is a good point.
    Dr. Thompson, I want to ask you, and I will get to some of 
the others, but you stated in your testimony, you called for 
uniform ratings, I believe, is that correct, in your testimony?
    Dr. Thompson. Yes.
    Senator Brownback. The Chairman of this Committee, Senator 
McCain, called for that 4 years ago. Joe Lieberman I believe 
has called for that previously. I have worked around this 
system. How would you do that? How would you move forward on a 
universal rating system? Have you thought that through any 
further?
    Dr. Thompson. Yes. I think the most important thing--there 
are big differences between the media and I recognize that and 
my research respects that. There are differences between 
interactive and non-interactive media. But I do think that what 
it comes down to is standards and actually having clear 
definitions for what you mean by violence and what you mean by 
smoking or tobacco.
    If you are not going to count unlit cigarettes, are you 
going to count pipes that are lit but are not in someone's 
mouth? Do you not count drugs that look like drugs but have a 
name like ``Scuma'' or something else, but have the effects and 
have a major role in the game?
    These are questions that I think are important ones and 
they transcend the media. Some of these questions about how we 
are talking about violence are things that I think we could 
make some headway on and at least provide transparency to 
parents so we know what it is that is or is not getting 
counted.
    I think that the first step is to try and come up with a 
set of standards. If they cannot apply to all media, then we 
should at least learn that by trying it. We should not just 
assert that up front. Then I think the existing ratings boards 
can implement those standards within their own media. I do not 
think we have to change fundamentally our entire system in the 
way that the ratings actually function. I think the issue is 
making it clear that there should not be opportunities for 
cross-media marketing where you get inconsistent ratings.
    Senator Brownback. Let me probe you a little more on this. 
What you are calling for is the FCC to establish a series of 
objective standards?
    Dr. Thompson. I do not think the FCC has to do it. I think 
it should be something that the industry wants to do. I do 
think that this is a self-regulated industry that has worked 
very well and that if they can actually figure out how to come 
together to work on this then that would be the best option.
    Senator Brownback. And it would be all of these 
entertainment industries coming together to establish a series 
of objective standards?
    Dr. Thompson. Well, again we are getting into objective-
subjective. I do think that the reality is there is some 
subjectivity. There are always the borderline calls. So the key 
issue for me is just knowing what is and what is not in the 
category or what does and what does not count, and that is 
where the current systems really lack a lot of transparency.
    Senator Brownback. So let me go at this then. You are 
saying to get all the industries together and have them 
establish, here is what counts for violence, here is what 
counts for sexual material, here is what counts for language, 
and describe, descriptors on that, and then have those applied 
uniformly throughout the entertainment industry products; is 
that what I hear you saying?
    Dr. Thompson. That is the concept. Now, again I think we 
have to realize that we do have age-based ratings that are very 
helpful. Parents do like age-based ratings. At least they 
report so on studies.
    I personally think that we need more categories. I think 
there are big differences between a 6-year-old and a 13-year-
old and it makes sense to me that we might have more age-based 
categories if we were starting it all over again. So I think it 
is time to actively really evaluate the media systems, look for 
opportunities to use single symbols that could apply for each 
rating board.
    I know that each rating board would have to deal with the 
legal aspects of that, since these are all copyright issues. I 
suspect that that is something they could figure out if it was 
in their collective best interests. Right now I do not know 
that they have the incentives to actually do this. So I think 
that is why we are seeing people coming up with other systems. 
But I do think that this is the time for us to recognize that 
media are converging. The Internet puts everything in 
everyone's house--movies, TV, radio. You name it, it is there. 
We really need to think about how we can provide better, more 
effective information for parents that gives them information 
about content, tells them about the ingredients, but does so in 
a way that they can make their own informed and empowered 
choice.
    Senator Brownback. That last statement I certainly agree 
with. This is one where we really need to be there.
    This has been an excellent panel. I did not know if anybody 
wanted to add anything or they felt like they were not heard. 
Mr. Kinney?
    Mr. Kinney. Just one follow-up. I believe that there is a 
need to simplify the ratings system. I think, though, my 
personal opinion is that the entertainment industry should be 
allowed to do what they are in existence to do, create 
entertainment content. And I believe that the ratings system 
will better come from the private industry. This is a market-
driven society.
    We even at PSVratings have worked for 3 years on developing 
our technology and refining it in anticipation of competition. 
We welcome competition. It is competition that is going to make 
us make our system better. So if we compete with other 
independent ratings systems, we will fulfil the needs of 
parents and consumers better because we will have to in order 
to survive. And it will be up to us to market our systems and 
make parents and consumers learn how to use them and make them 
aware of the availability of them.
    Again, this is a market-driven society. I believe that the 
solution should come from the private sector.
    Senator Brownback. Ms. Miller?
    Ms. Miller. I just wanted to add that in a digital 
television world there is the capability for an open V-Chip as 
television transitions and we move to a digital system. So I 
think that is something that can be looked into.
    But I just wanted to say, for parents really more content 
information is better. What we really have to make a commitment 
to while we have the systems that we have now is to do what we 
can to make them work so parents can make empowered, informed 
choices.
    Mr. Valenti. May I have one second, sir?
    Senator Brownback. Yes.
    Mr. Valenti. The great omission in this panel, Mr. 
Chairman, is the file swapping sites on digital. They are not 
only not rated, it is very difficult to find them. If you go to 
digital, any 10-year-old kid today can go up and get Morpheus 
and Gnutella and Imesh and eDonkey and bring down at the speed 
of light the most squalid perversions of pornography that will 
shake the very foundations of your comprehension.
    It is there. I do not know why nobody talks about it. It is 
awful. I have seen it and I have had people call me. I had one 
mother in California send me the pictures that her son brought 
down on a color printer, that I could not even look at myself, 
it was just so awful.
    So you have to deal with that. We have been trying to get 
the Congress to understand this and trying to find, through 
technology, through education, through narrowly focused and 
narrowly drawn pieces of legislation, to deal with this, 
because it is there, Senator. It is much alive.
    If you go on, for example, one of these file sites, you 
will find that some 400 to 500 million people are on it at any 
particular time and they are swapping 850 to 900 million files, 
and about half of it is this squalid pornography.
    Senator Brownback. I am familiar with that and the 
Congress, as you know, has tried to pass legislation and the 
court has struck it down. That is why I keep on in these things 
trying to move to more and more of a consumer choice issue, so 
that we give the information to the consumer, but then empower 
them technologically as well to block, if we can get that 
system in place.
    Mr. Glickman, I do not mean to put you on the spot with 
this, but when you were Secretary of Agriculture you did a lot 
on food labeling. It was good work. Do you see a problem or do 
you see any analogy of going there in this industry? Basically, 
what we are trying to do is get products labeled and whether it 
is the most squalid, which Mr. Valenti just said, but requiring 
that labeling be on there and give the consumer the ability to 
accept or reject.
    Mr. Glickman. But you have a lot of the same issues 
involving objectivity and subjectivity. In the case of food, 
quite frankly, there is a lot more hard science available as to 
what has an effect on your body and what does not than there is 
with respect to the kinds of entertainment intellectually 
received, observed, or listened to. So because that hard 
connection is not there, then you have to make basic judgments 
based upon what you think your good judgments are. Quite 
frankly, in the case of the movie ratings perspective, I think 
those judgments have been quite valuable.
    I think there are some parallels there, but quite frankly 
the amount of scientific evidence involving food and 
consumption of food is much, much greater, much different than 
it is in this industry.
    Senator Brownback. So you would support Dr. Thompson's call 
for the CAMRA legislation to get a lot more intellectual 
information?
    Mr. Glickman. I do not know enough about that specific 
legislation, but I think it is always useful to get more 
information on these kinds of issues.
    Senator Brownback. I really do think that is a valuable 
piece for us to get, because the hard science is coming here, 
but we do not have it fully developed yet.
    Ms. Vance----
    Mr. Glickman. The other thing, of course, is that you have 
all the First Amendment intellectual property rights and 
freedom of expression issues when it comes to these issues, 
which are not necessarily at play when it comes to food.
    Senator Brownback. I understand.
    Ms. Vance. I just wanted to make one comment. It gets back 
to evidence. There is no evidence, at least with video games, 
that consumers are dissatisfied with the standards that we are 
using for our ratings and for our rating categories or the 
assignment of content descriptors. I think where we are most 
concerned right now is trying to understand why parents choose 
to ignore our ratings and bring home inappropriate games for 
their children.
    We have the ratings system. It has been out there for 10 
years. Every single box has prominent labels, every ad has 
prominent labels. So why is it that nine out of ten purchases 
involve an adult and why is it that many of those adults choose 
to ignore those ratings and bring home games that are 
inappropriate for their children? That is I think our biggest 
issue right now.
    Senator Brownback. Have you done any surveys of parents to 
tell you why?
    Ms. Vance. Not deep enough, no. And I think it would apply 
to everybody. The same would apply--I am a parent, I am a 
mother. I experience this frequently when my children go to 
other children's homes and their parents take them to 
inappropriate movies or bring home inappropriate movies to 
their children or watch inappropriate television programs. I 
think it is fairly pervasive in the consumption of 
entertainment and I think that would be a very good use of 
effort and time and expenditure, to really understand what 
motivates particularly parents to choose entertainment product 
and why some parents choose to ignore it.
    Senator Brownback. Well, thank you all very much. I 
anticipate that this will be an issue that will continue to 
come forward, and that we need to provide the parent with as 
much information as we possibly can. Hopefully, we can get the 
CAMRA legislation through for the research. I think everybody 
is agreeing on that.
    I hope as well we can provide and make this easier for the 
parent, not more difficult. My experience on this has generally 
been it has been the parent--the child is pushing to see and 
get more and more racier material and the parent is pushing 
back, and the society is pushing with the kid or the industry 
is pushing with the kid, with the child. I would like to make 
this as easy and as friendly for the parent to be able to use 
and do what they believe is right for this.
    I thank you all for trying. It has been several years we 
have had panels like this. I do think we have been making 
progress on a tough subject. Thank you for coming.
    The hearing is adjourned.
    [Whereupon, at 4:18 p.m., the subcommittee was adjourned.]

                            A P P E N D I X

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre></body></html>
